<html>
<title> - GOVERNMENT AND INDUSTRY-WIDE EFFORTS TO ADDRESS AIR TRAFFIC CONTROL DELAYS</title>
<body><pre>[Senate Hearing 107-1096]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1096

  GOVERNMENT AND INDUSTRY-WIDE EFFORTS TO ADDRESS AIR TRAFFIC CONTROL 
                                 DELAYS

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON AVIATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
88-830                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                                 ------                                

                        SUBCOMMITTEE ON AVIATION

                 KAY BAILEY HUTCHISON, Texas, Chairman
TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
CONRAD BURNS, Montana                    Virginia
TRENT LOTT, Mississippi              ERNEST F. HOLLINGS, South Carolina
OLYMPIA J. SNOWE, Maine              DANIEL K. INOUYE, Hawaii
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 10, 2001.....................................     1
Statement of Senator Burns.......................................    15
Statement of Senator Fitzgerald..................................    13
Statement of Senator Hutchison...................................     1
Statement of Senator Rockefeller.................................     3
    Prepared statement...........................................     4
Statement of Senator Snowe.......................................    18

                               Witnesses

Carr, John, President, National Air Traffic Controllers 
  Association....................................................    34
    Prepared statement...........................................    37
Dillingham, Gerald L., Ph.D., Director of Civil Aviation Issues, 
  General Accounting Office......................................    25
    Prepared statement...........................................    27
Garvey, Hon. Jane, Administrator, Federal Aviation Administration     5
    Prepared statement...........................................     7
Merlis, Edward A., Senior Vice President, Legislative and 
  International Affairs, Air Transport Association of America....    46
    Prepared statement...........................................    49
Vacar, Richard M., AAE, Director, Houston Airport System.........    41
    Prepared statement...........................................    43

 
  GOVERNMENT AND INDUSTRY-WIDE EFFORTS TO ADDRESS AIR TRAFFIC CONTROL 
                                 DELAYS

                              ----------                              


                         THURSDAY, MAY 10, 2001

                                       U.S. Senate,
                                  Subcommittee on Aviation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Kay Bailey 
Hutchison, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I am going to wait a couple of minutes 
to see if Senator Rockefeller comes. I have an unusual 
situation. Of course, I am Chairing this hearing and it is very 
important to me. I have been working on it for a long time. But 
a Texan, Gordon England, is being nominated for Secretary of 
the Navy and the hearing was supposed to be at 9:30. So I was 
all set to go there and come here, but Chairman Warner changed 
the time to 10 o'clock.
    So I am going to open the hearing and turn it over to 
Senator Rockefeller or, if he is not here, to Senator Burns. I 
will come back. Administrator Garvey, if I miss part of your 
testimony, I am so pleased that we got a chance to have a good 
visit yesterday. I am pleased with the progress that you are 
making. I think we have a good understanding of what you are 
doing.
    So I will be back just as soon as I can.
    I am going to go ahead and start the hearing and hope that 
Senator Rockefeller is able to come very quickly.
    Today the Aviation Subcommittee will examine the connection 
between the growing problem of flight delays and the air 
traffic control system. As you know, several weeks ago we had a 
hearing on the infrastructure improvements that are needed. I 
am convinced that weather is a large part of the delays in our 
country, but it is not the only part. There are things that we 
can control and we need to address those issues.
    So we are going to look at streamlining environmental 
reviews for more runways to come on line more quickly, for more 
gate space, and I hope, more flexibility for the use of PFC 
funds for more gates, so that we at least can expand the ground 
infrastructure and expedite those additions.
    Today we are going to talk about the air traffic control 
system, because, of course, part of the congestion is in the 
air and we need to look at what can be done to have the very 
best in air traffic control equipment. For years we have heard 
charges that the FAA has been slow to deploy new technology and 
that the equipment used by air traffic controllers is 
unreliable and outdated. I personally do not believe that this 
is the whole truth and after our visit yesterday I see that 
there are some things that you are doing at the FAA that I 
believe will help that particular airspace congestion in 
certain areas.
    The United States has the most complex airspace on earth 
and the FAA faces an incredible challenge to get 680 million 
annual passengers to their destinations safely. Clearly, they 
must be doing something right, since American airspace is also 
the safest.
    The FAA's primary mission is and must always remain the 
safety of the traveling public. Nonetheless, the ATC system is 
not as efficient as it should be. The equipment in many of our 
facilities was designed in the 1950's. It was never meant to 
handle the volume of traffic that occurs every day. Equipment 
outages have caused chaotic nationwide delays and 
cancellations. Even new air traffic facilities, such as the 
tower at Reagan National Airport, have been outfitted with old 
computers and radar screens.
    Modernization efforts are taking too long, cost too much, 
and they have done too little. Funding is always an issue. As 
both the Chairman of this Subcommittee and as an appropriator, 
I have fought many battles over transportation and budgetary 
priorities. But with the passage of AIR-21 Congress has 
prioritized aviation infrastructure. We will not back off that 
commitment, and the Chairman of the full Committee, Senator 
McCain, fully supports this commitment.
    We have tried before. Between 1982 and 1999 the FAA spent 
$27 billion on air traffic control systems, facility upgrades 
and support equipment. This was the initial implementation of 
the FAA's ATC modernization program. The program was scheduled 
to be completed in 1993 at a cost of $12.6 billion. Today air 
traffic control modernization is not expected to be completed 
until 2012, at a cost several times the original projection.
    Certainly a portion of this overrun is due to the 
burgeoning demand for air travel since deregulation in the 
1970's. But conservative estimates place the amount of money 
wasted in this effort between $1.6 billion and $2.8 billion.
    It is bad out there. Passengers are fed up with airline 
schedules that bear little or no relationship to the actual 
flight times. They are tired of wondering if their flight will 
not be one of the 2.6 million that are canceled or delayed. The 
airlines must provide their customers with accurate information 
and abandon the practice of overscheduling.
    The Aviation Delay Prevention Act that will allow the 
airline to consult with one another to reduce overscheduling 
and coordinate operations during bad weather will be on the 
markup on the 24th. Senator Rockefeller, my distinguished 
ranking member, and Chairman McCain have joined me in co-
sponsoring this bill and we have worked very hard to make the 
bill amenable to all of the different issues and concerns. It 
is my hope that we will get this bill out of Committee and be 
able to go to the floor very quickly.
    The most important objective of the bill and the real 
answer to passenger frustration is to build more capacity. 
First and foremost, we need more runways and gates. However, 
these improvements will not have as great an impact unless they 
are accompanied by upgrades in the air traffic control system. 
The airline must partner with the FAA to deploy new 
technologies that will permit us to more efficiently use our 
airspace.
    I want to say that I think, Ms. Garvey, you are working to 
have partnerships with the airlines, which is essential if we 
are going to solve this problem. They are the customers. They 
are the ones who are out there trying to do the job and doing 
something in a vacuum that they do not approve or agree will be 
helpful, would be counterproductive.
    Improved instrumentation on the ground and on board the 
aircraft will enable planes to safely close the 5-minute gap 
and to fly through and around weather.
    Today the Subcommittee will hear from Administrator Garvey 
as well as a range of perspectives from the aviation industry. 
Those will include: Dr. Gerald Dillingham, the Director of 
Civil Aviation Issues at the General Accounting Office; Mr. 
John Carr, the President of the National Air Traffic 
Controllers Association; Mr. Richard Vacar, the Director of the 
Houston Airport System; and Mr. Edward Merlis, the Senior Vice 
President of the Air Transport Association of America.
    So let me say I welcome all of the witnesses. We want this 
record to be clear. I think Senator Rockefeller's and my bill 
on infrastructure improvements is a clear solution that will 
move the ball forward. Air traffic control is more technical. 
It must be correct. It should not be a political issue. It is a 
technical issue. So we are looking to the expertise to 
determine what is the best thing and then to give you the money 
and the support that you need to do this very important job.
    With that, I had already mentioned, Senator Rockefeller, 
that I would be leaving and turning the Committee to you, to go 
and introduce the Secretary of the Navy, whose hearing is right 
now, and then I will return. But I have told Administrator 
Garvey that I have read her testimony and I believe that she is 
certainly on the right track.
    So with that, I would like to call on you for an opening 
statement. Then if you will call on Senator Burns and Senator 
Fitzgerald, then I will be back as soon as I can.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Madam Chair, I assume the Secretary of 
the Navy is from New Mexico?
    Senator Hutchison. This is true.
    Senator Rockefeller. Okay.
    Senator Hutchison. If he were from West Virginia, I would 
do it.
    Senator Rockefeller. Thank you very much, and we will await 
your coming back.
    I am always conflicted because I look at Jane Garvey, and I 
am trying to think whether the Red Sox lost last night and I 
think they did, did they not?
    Ms. Garvey. It was not a good night.
    Senator Rockefeller. [presiding]. So you are not in a very 
good mood, and I am trying to figure whether to give my 
statement or not. It is a good statement, but I think I can get 
a lot of it out in questioning. That will put a little more 
pressure on my colleagues. We will see how they react to it. So 
I am going to put my statement in the record and then call upon 
Senator Fitzgerald.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    We have a problem. Capacity of the ATC system has not kept up with 
demand, and it is only going to get worse. Passengers will not be happy 
this summer, during the peak thunderstorm season, and all of the 
``Passenger Rights'' legislation in the world will not help them. Right 
now, passengers know their flights will be delayed or late. That is a 
given.
    The FAA is working hard with the carriers to mitigate delays. They 
put in a ``spring/summer'' plan last year to better coordinate 
decision-making among the carriers and FAA, requiring conference calls 
beginning first thing in the morning. It appears to be working.
    There is no one single answer to ``solving'' the capacity issue. 
Adding runways or more closely spacing aircraft are essentially the two 
options. Each change, or expansion, requires coordination among the 
entire industry--carriers may need to add expensive equipment that can 
take years to install, the FAA may need to design computers and 
software to more accurately depict and predict aircraft actions, and 
substantial dollars may be needed.
    With respect to runways, the FAA expects runway projects to take 10 
years to build. Expediting runways will be helpful, and should be done, 
but streamlining the process will not shave 5 years off of the time. 
(Airports begin planning for expansion when a runway reaches 60 percent 
of capacity. The FAA estimates traffic growth of about 3-4 percent per 
year, thus after 10 years, the runway is at full capacity a new one 
will open.)
    We need to attack the issue from two perspectives--increasing 
capacity and managing demand in the short term.
    Expanding capacity is a complex task, but essentially comes down to 
building more runways and using new technology. Expanding runway 
capacity can, at some airports, dramatically increase capacity--by up 
to 50 percent at some airports. At other airports, for example, 
Boston's Logan, if they build a new short runways--and I know there is 
a lot of opposition to that--it will cut down on delays, but add no new 
capacity.
    New technology will produce benefits, but the increases are not 
going to be as dramatic as a new runway. Every increase helps, and the 
FAA and industry must work together. For example, getting better and 
more accurate weather forecasts--forecasts that can better predict more 
precisely weather conditions--will help carriers and the FAA plan 
operations every day.
    According to the FAA's report on Airport Capacity Benchmarks, 
LaGuardia is the only airport, where even under good weather 
conditions, demand exceeds capacity and it occurs all day. This airport 
is subject to the FAA's slot controls. Congress is about to give the 
FAA and DOT authority to immunize carriers from the antitrust laws to 
talk about scheduling. For LaGuardia, we are going to have to make some 
hard choices. Either accept delays, or cut flights. There are different 
ways to do this, but no matter what, it will not be easy.
    Right now, the FAA is considering some form of fee system to 
address delays. Talk of different types of fees really means pricing 
someone out of the system--those that can afford it get to stay. 
Congress, perhaps incorrectly, opened up LaGuardia to more flights as 
part of AIR-21. We will need to scale back flights. The FAA should use 
the carrier discussions to get them to reduce flights--particularly the 
number of frequencies between specific cities, where perhaps carriers 
can switch from smaller jets to larger ones, but fly one or two times 
less per day.
    The FAA also should use its powers of persuasion to do the same 
thing--or accept the fact that delays at LaGuardia will continue and at 
some point the carriers will take actions on their own. Interestingly, 
the FAA's own documents that discuss possible ways to address delays, 
talk of the need for carriers to look at their own schedules as one of 
the delay mitigation measures.
    Finally, and most important: I want to say one thing about the FAA. 
Jane's term ends in August 2003. She has worked hard to keep this 
system moving forward under some difficult conditions. She has worked 
with the industry and Congress to try to make us all understand the 
depth of the problems and the needs of the FAA. Despite passage of AIR-
21 last year and Jane's efforts, with dramatic increases in funding, we 
still may not meet the needs of the FAA. The recently issued 
Operational Evolution Plan--something that takes into account future 
needs--may ``break the bank'', but if we do not agree on a plan, and 
fund it, Congress will have failed in its responsibilities to Jane, to 
the carriers, and most importantly, to passengers.

    Senator Fitzgerald. Are you calling on me now, Mr. 
Chairman?
    Senator Rockefeller. Yes, for your opening statement.
    Senator Fitzgerald. Thank you. I do not have an opening 
statement and I will simply join you in questions. I welcome 
Ms. Garvey here. I have seen you on some flights to my beloved 
airport, O'Hare Airport in Chicago, which may come up in this 
hearing today. I will look forward to your testimony.

                STATEMENT OF HON. JANE GARVEY, 
         ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION

    Ms. Garvey. Well, thank you very much, Mr. Rockefeller and 
also Mr. Fitzgerald. It is really a pleasure to be here this 
morning to address the issue of aviation delays and system 
capacity.
    As the Chairman mentioned, we have an extremely complex 
system and an extremely safe system as well. We manage 50 
percent of the world's aviation traffic. The number of 
passengers using our system has doubled in the last decade. Our 
airspace system is highly interconnected. It is interrelated. 
Certainly, as you all know and as many of you have mentioned, 
it relies on each sector of airspace operating both safely and 
efficiently.
    We know that delays at any one of our busiest airports have 
a rippling effect throughout the entire aviation system. For 
example, in 1 day in December delays at LaGuardia caused delays 
at 73 airports. So there is definitely a rippling effect.
    As Members of this Subcommittee have mentioned, and as 
Secretary Mineta has mentioned many times, it really is going 
to take all sectors of the industry--airlines, airports, and 
government to reduce airline delays. Each of us really share a 
responsibility for action. What I would like to do this morning 
very briefly is to highlight both the tactical, the short term 
measures that we at the FAA are taking, and also comment a bit 
on our strategic long-term plans.
    First let me say--and I really mean this and I want to 
underscore this, I think we have an unprecedented level of 
cooperation between the FAA, the airlines, the pilots, the 
controllers in managing the system. I think you will hear this 
from other members who will be following me on the following 
panel. There is a sense that we are in this together.
    As Senator Rockefeller knows because he has visited 
Herndon, every day just before 5 a.m. in the morning at the FAA 
command center in Herndon, planning begins with the airlines. 
It continues every 2 hours throughout the day. It is real-time 
decisionmaking, real-time collaboration. We arrive at a plan 
that we want to implement together.
    Last fall, in preparation for this summer's travel season, 
we conducted a joint evaluation of the plan with the airlines. 
We looked at the spring-summer program of 2000 and we 
essentially said, what can we do better? FAA has adopted all of 
the recommendations that came out of that review.
    In my opinion, one of the most important recommendations 
was the joint training that we have done with the airlines. By 
March of this year, we had trained more than 3,000 controllers, 
supervisors, and airline dispatchers. By May 15th we will have 
trained the controllers at each of our facilities, and the 
airlines are undertaking similar activities.
    We have also focused, with the airlines, on what is really 
our toughest, most complex area, and that is that challenging 
triangle between Chicago, Boston, and Washington, D.C. We have 
identified 21 initiatives to really relieve those choke points 
within the triangle. We said, let us focus our energies on the 
worst area. The initiatives really focus on changes to gain 
greater efficiency in the National Airspace System (NAS). We 
are doing this by changing air traffic procedures, by 
establishing new airspace sectors, and by creating new routes. 
We have completed work on 11 of 21 initiatives. These 
specifically address the congested airspace around New York and 
New Jersey. As a result, the westbound and northbound traffic 
out of the New York area are experiencing fewer delays.
    Just last week we opened three new sectors in the Cleveland 
center, which is really our busiest center in the country. We 
are currently testing new routes between 300 city pairs which 
will allow aircraft between those points to fly at lower 
altitudes. We think by separating the flights in that way we 
can achieve far greater efficiency in the System.
    In addition, we have unprecedented cooperation with Nav 
Canada. They now participate in the conference calls with the 
command center every day. They have also opened up, through a 
memorandum of agreement with us, some of their airspace. We are 
finding that airspace extraordinarily helpful, particularly in 
bad weather.
    We also know, as we examine the airspace to achieve greater 
efficiency, that we need to expand the capacity on the ground. 
Last month, we issued a report on the capacity benchmarks for 
31 of the busiest airports in the country. In fact, we first 
talked about it at a hearing last fall. We took a look at two 
numbers. One is the number of hourly takeoffs and landings that 
can be accommodated safely in good weather. The second number 
is the number of operations that can be accommodated in reduced 
visibility or poor weather.
    We believe the benchmarks are a good starting point. It is 
valuable data. It is not the only data that should be looked 
at, but it is very valuable data to use as we fashion the right 
set of solutions. That is really our focus now. We have taken a 
cut at potential solutions for each one of the top eight 
airports that are experiencing the worst delays. The actions 
include new technology, air traffic procedural changes, and in 
some instances new runways. We are very eager to work with the 
airports and with the airlines to fashion the right action 
plan.
    When new runways are an option, we are looking at how we 
can build them more quickly. Again, those were issues that were 
raised at this hearing last fall.
    AIR-21 required the FAA to report on the environmental 
review process. I am pleased to say our report is essentially 
complete, and we want to get and expect to get it to Congress 
very shortly.
    We also know we need a 10-year view of where we are headed, 
and that is where the National Air Space Operational Evolution 
Plan comes in. It lays out a 10-year commitment. What is 
important about this is that it is a 10-year commitment for the 
FAA, for the airlines, and for the airports. It includes new 
runways, new technology and procedural improvements. I think, 
simply put, the plan really sets forth the blueprint we are 
taking with industry to move to satellite navigation. We are 
working very hard with the industry now to reach agreement and 
we hope to reach that agreement by June of this year.
    Just one last note, too, on some of the technology points 
that the chairman raised. As we are developing this 10-year 
plan I want to underscore the fact that we are also very 
aggressively pursuing modernization. During the last 3 years, 
we have been able to get all new hardware in each of our 20 
centers. So the hardware in our 20 centers is no more than 5 
years old.
    The replacement of the computers and software equipment has 
been completed in just about 140 of our TRACONs. We are now 
focused on the towers. That is very challenging, very 
complicated airspace area, but that is our focus now. Free 
Flight Phase 1 and Phase 2, is on schedule and we have met 
every one of the benchmarks we have set for ourselves.
    I certainly do not want to leave anyone with the impression 
that modernization is complete. It certainly is not. It is a 
continuing process for us with some enormous challenges. Thanks 
to the increased funding for AIR-21, we were able to attack the 
computer software for the Host computers, which is going to be 
a very big help for us.
    So I will just end by simply saying that I want to assure 
the Committee that you have my personal commitment and 
certainly the commitment of the agency to do everything that we 
can to be part of the solution in solving airline delays and 
increasing the capacity of what is an extraordinary system.
    Thank you very much.
    [The prepared statement of Ms. Garvey follows:]

                Prepared Statement of Hon. Jane Garvey, 
             Administrator, Federal Aviation Administration

    Chairman Hutchison, Senator Rockefeller, Members of the 
Subcommittee, it is a pleasure to appear before you today to discuss 
the topic of airline delays and capacity. Throughout the past two years 
the Federal Aviation Administration (FAA) has been working to improve 
the efficiency of the air traffic system, while at the same time, 
maintain the highest standards of safety. That safety is, and should 
remain, of paramount importance is clearly supported by every member of 
the aviation community. I am very pleased to share with you the role we 
at the FAA are taking to lead the effort to provide a safe and reliable 
air traffic system.
    Delays have significant financial, scheduling, service, and 
competition consequences for airlines and result in understandable 
frustration for their passengers. The issue of delays is very complex. 
There are many conditions that can cause delays: bad weather, 
inoperable runways, airport capacity limitations, aircraft equipment 
problems, airline maintenance and flight crew problems, and air traffic 
equipment outages. Because of the varied causes for delays, we know 
that they will never be totally eliminated. Nevertheless, it is the job 
of the FAA, the airlines, and airports to strive to minimize delays to 
the greatest extent possible, without compromising safety.
    In light of the flight delays our nation experienced in 1999, we 
recognized that we needed to establish a collaborative planning process 
between the FAA and users of the National Airspace System (NAS). We 
created the Spring/Summer 2000 plan, a collaborative effort developed 
by industry, labor, and government. The plan maximized the use of 
available airspace, improved communications between the FAA and 
aviation system users, and expanded the use of new technology. All of 
this was designed to improve predictability for airlines operations 
during severe weather.
    The Spring/Summer plan was designed as a delay management plan 
because, as I've stated, we know we can never eliminate delays. 
However, it was hoped that the plan would assist us do a better job of 
collaborative decision-making to better manage the airspace so that the 
flying public has some expectation of predictability. We know that 
centralized decision-making, unprecedented collaboration, common 
weather information--what we refer to as the playbook--is absolutely 
the right approach. While delays did increase in 2000 from the previous 
year, along with the number of flights and airline passengers, we do 
know that our collaborative approach did make a difference. Some 
airlines informed me that even with the increase in severe weather days 
in 2000, our collaborative efforts enabled them to better plan and 
execute operations as well as to inform passengers in advance of severe 
weather. This is the key to our Spring/Summer plan efforts in 2001, 
which includes training over 3,000 controllers, supervisors, and 
airline dispatchers. In addition, I am happy to report that Nav Canada 
now participates in our conference calls with the airlines and has 
worked to develop routes that will accommodate approximately 400 
additional flights per day. I am hopeful that this, in addition to 
access to additional military airspace off the east coast, will assist 
us in achieving greater air traffic efficiencies this spring and 
summer.
    What the past few years have demonstrated is that, right now, 
supply and demand for capacity are out of balance, and result in 
delays. How this gap is managed is very complex and cannot be solved by 
government alone, but the FAA is committed to lead this effort. In 
order to do so, we knew we needed better information specific to the 
root causes of the problem, and could tell us how capacity enhancements 
at key airports would affect the entire NAS.
    Toward that end, the FAA recently released its report on Capacity 
Benchmarks. The report provides data for 31 airports across the 
country. This report provides valuable data that we hope will be used 
to assist the FAA, airports, airlines, and other system users in making 
informed decisions and investments that can ultimately help better 
manage the ever increasing demand for capacity, while at the same time 
minimize unavoidable delays. The report documents what Members of 
Congress, as frequent fliers of the system, know intuitively; that 
there are a handful of airports at which demand exceeds capacity and 
where, in adverse conditions, the resulting delays have impacts 
throughout the NAS.
    While the report on Capacity Benchmarks provides us with valuable 
data upon which important decisions can be made, we have other, 
tactical and strategic measures underway to improve efficiency of the 
air traffic control system. In addition to the Spring/Summer 2001 plan, 
we have identified other tactical measures. For example, we have 
identified seven choke points centered in the congested airspace 
between the ``triangle'' of Boston, Chicago, and Washington, D.C. We 
are implementing 21 action items to address these choke points. Eleven 
of these initiatives have been completed and continue to be measured 
for effectiveness. For example, departures going west out of New York 
airports have experienced 25 percent fewer unplanned departure stops. 
(An unplanned departure stop occurs when the departure radar controller 
directs the towers to stop all departures due to weather, workload and/
or complexity issues.) We have also reduced congestion for flights 
flowing north out of New York airports, thus reducing departure stops 
by 37 percent.
    Five additional action items are mid-term initiatives with expected 
completion dates between June and December of this year. Five more are 
long-term actions requiring either phased in implementation, future 
funding, equipment, or international agreements. Our goal is to 
complete these remaining items by the summer of 2002.
    On April 30, 2001, we opened three new sectors at Cleveland Center, 
the most congested Air Traffic Control Center in the nation. We are 
working to establish a total of 14 new sectors by the end of the year, 
seven of which have been opened, to ease congestion and speed traffic 
flows in the Great Lakes corridor and into New York. New routes have 
been developed throughout the ``triangle'' to improve the traffic 
flows. The System Command Center, in consultation with users, 
tactically restricts certain flights through this area to improve 
sector capacity. As a result, we can accommodate more flights and, 
overall, aircraft fly more efficiently. We have identified a total of 
19 new sectors which will make significant differences in traffic flows 
for flights in Boston, Chicago, Washington, D.C., and New York, as well 
as other northeast airports by the Summer of 2002.
    The FAA is also working to determine where our operating, capital, 
and research investments should be best distributed to meet our 
strategic goals, including those pertaining to system efficiency. A 
better understanding of how these three resources enable us to achieve 
goals will help us make more effective decisions for the near and long 
term.
    For the first time, the FAA has, with the cooperation with the 
aviation industry, developed a far-reaching 10 year National Airspace 
System Operational Evolution Plan (OEP). This involved a coordinated 
effort within the FAA and systematic collaboration with the airlines, 
airports, and other members of the aviation community. This plan 
directly addresses the passenger delays identified in our capacity 
benchmarks study.
    The plan calls for changes in how aircraft operate to better match 
available capacity to meet demand; a redesign of the airspace to 
accommodate greater numbers of aircraft while maintaining safety; 
deployment of new technology to increase flexibility; construction of 
new runways; and new procedures to improve management of delays.
    This is a fundamental change in the manner in which we conduct 
business. The OEP is about commitment, accountability, and 
deliverability. While we at the FAA are making certain commitments, the 
OEP will require our partners, particularly the airlines, to make 
significant investments in avionics equipment and pilot training for 
this effort in expanding system capacity. That is why we have worked so 
diligently in getting industry support for the OEP. We have had two 
industry days and have posted the OEP on our web site so that we can 
get comments from a broad range of system users. We are reviewing 
comments as they are received and plan to issue a final OEP in June.
    More strategically, we are redesigning our nation's airspace and 
air traffic control automation. The National Airspace Redesign will be 
completed for the entire country in 2006, but we are starting in the 
New York and mid-Atlantic areas where we expect tangible benefits 
within four years. The most congested and complicated airspace is east 
of the Mississippi River. Because this airspace poses the most 
challenges, it is the initial focus of our redesign. Our goal is to 
establish comprehensive processes and procedures to ensure adaptable 
and flexible airspace that meet future demands.
    In conclusion, I would like to say that the entire FAA, from my air 
traffic management team, to my modernization team, to our airport 
folks, the FAA recognizes our dual responsibilities of safety and 
efficiency when it comes to reducing aviation delays. I am fortunate to 
have a highly dedicated workforce--our controllers, our technicians, 
and our headquarters staff--and we are all working aggressively and 
cooperatively with airlines and airports to meet these challenges.
    Madam Chairman, I will be happy to answer your questions at this 
time.

    Senator Rockefeller. Thank you, Jane Garvey.
    Senator Burns, Senator Snowe, do you have any comments that 
you want to make?
    Senator Snowe. I will wait.
    Senator Burns. I will wait. I know you would like for me to 
ask a question, but I will not.
    Senator Rockefeller. Ms. Garvey, the technology--well, let 
me ask two other questions first. It is interesting that you 
reached an MOU with Canada. That means, I take it, that you can 
use some of their provincial space to route airplanes?
    Ms. Garvey. Yes, that is correct, Senator.
    Senator Rockefeller. To get around weather or to help with 
delays, etcetera. Was that a hard thing to achieve? I mean, did 
national prerogatives suddenly get involved or overcome or 
what?
    Ms. Garvey. Let me say, I think it is always more 
challenging than you think it is going to be when you start 
out. There were some issues. But we worked hard at it. Just to 
give you an example of how beneficial it can be, on one 
particularly bad day a couple of weeks ago I think we were able 
to accommodate about 300 aircraft in the Canadian airspace that 
might otherwise have stayed on the ground much longer than we 
would have liked. So we think it is going to be very helpful.
    Senator Rockefeller. In the process of building up to this 
MOU, were they territorial about it or were they sort of open 
from the beginning?
    Ms. Garvey. I think they were very open from the beginning. 
I think there were always issues about whether they would need 
additional staffing, incur expenses associated with it, and so 
forth. But we worked all of those issues out. I think there are 
always ways that we can help Nav Canada, too, in some of their 
air traffic issues. So we are, I think, working very 
collaboratively and cooperatively.
    Senator Rockefeller. It is just fascinating to me because 
it is the best possible technology, is it not?
    Ms. Garvey. It certainly is.
    Senator Rockefeller. You can use southern Saskatchewan, 
Manitoba, and other places to overcome problems, and that makes 
up for all kinds of technology deficiencies.
    Ms. Garvey. That is right.
    Again, I think those are the short-term initiatives that we 
can do as we are pursuing the technology. By the way, the 
Department of Defense has been equally as helpful. They have 
worked with us in a marvelous fashion in the last year to help 
us identify some of their restricted airspace, so that we can 
use it when it is not being used by them.
    Senator Rockefeller. Kay Bailey Hutchison when she was 
giving her statement pointed out that there were old computers 
put into the new Reagan National Airport. Was that because it 
happened before the AIR-21, etcetera?
    Ms. Garvey. That is exactly right, Senator.
    Senator Rockefeller. How old are those computers?
    Ms. Garvey. Well, I am happy to say that those have now 
been updated and replaced. I do not remember the year because I 
think it was a little bit before I arrived.
    Senator Rockefeller. How often do those computers have to 
be changed, looking over the next 10 or 15 years, in order to 
in fact be up to date, if you have got the money?
    Ms. Garvey. It really varies. What has been fascinating to 
me is to look at some of the software, for example for the Host 
computers. We made a decision 3 years ago. We said what is 
really failing is the hardware. Ideally, of course, you would 
do everything at once, but we said the hardware is what is 
failing, so let us replace that first. Remember, we wanted to 
do this before Y2K. The software, which is old but has been 
very, very sustaining, if you will, it has served us well. It 
has been reliable.
    So we made the decision at that point to replace the 
hardware and to defer the software, with the additional money 
from AIR-21. I cannot underscore how important that is. That 
additional $150 million that we got in the Facilities and 
Equipment account allows us, though, to pursue software 
replacement for the Host in a way that we could not otherwise.
    Senator Rockefeller. But in fact, of the need that you 
project over the 3-year life of the bill for technology, air 
traffic control technology, etcetera, that $150 million 
represents what percentage of what you actually need to be able 
to do?
    Ms. Garvey. I actually think for us the AIR-21 numbers are 
very solid for the next 3 years as we lay out that operation 
plan and what we have done. It is a 10-year plan and clearly 
the out years are the real challenge, but in the short term I 
think the AIR-21 numbers are very, very solid.
    Senator Rockefeller. Good, good.
    Obviously, the technology is key to a lot of this, as are 
runways. In some ways technology, in most ways technology, if 
you have the money, is obviously a lot easier than runways, and 
then just keeping the whole system modernized. It is not 
static; it moves.
    You mentioned when I went out to Herndon which is highly 
sophisticated--it is like a war room, it is so impressive. But 
I assume that that kind of thing changes, the software, the 
hardware.
    Ms. Garvey. It does, and there are always updates.
    Senator Rockefeller. It is constantly in motion, is it not?
    Ms. Garvey. There are always updates, that is right.
    Senator Rockefeller. Now, you have a number of promising 
technologies that are being tested. Some are even under 
employment. The hope is that they offer significant 
improvements for air traffic control, and the improvements will 
then allow, presumably, more takeoffs, more landings.
    Ms. Garvey. That is correct, yes.
    Senator Rockefeller. Potentially closer planes or not 
closer planes. Can you tell us, about these programs, programs 
like the Free Flight programs, how they are proceeding in 
deploying, and what differences do you think they make? What 
other kinds of technologies might there be, better forecasting 
of weather information, that kind of thing, and what kind of 
difference will they in fact make, and will they make it in 
time?
    Ms. Garvey. Well, let me start with Free Flight Phase 1 and 
Phase 2. That was first and foremost an agreement with the 
industry to really come up with and arrive at technologies that 
we could agree on together. So when you look at Free Flight 
Phase 1 and Free Flight Phase 2, they really are an agreement 
both with the airlines and also with the air traffic 
controllers and the technicians who operate and use that 
system.
    Free Flight Phase 1, a series of automation tools for the 
controllers, is on schedule. We have a very simple, 
straightforward agreement with industry, which is that we will 
deploy the tools, which we have done on schedule, and industry 
tell us how well it is working. Are the benefits what they 
should be? We are beginning to see the benefits and get 
feedback from the customers themselves.
    So if you look at some of the conflict probe tools, for 
example, you will find that it has increased the arrival and 
departure rates at places----
    Senator Rockefeller. I missed what you said. The which 
tools?
    Ms. Garvey. The conflict probe.
    Senator Rockefeller. Okay.
    Ms. Garvey. Thank you. Do not ask me to explain that any 
more, will you?
    Senator Rockefeller. I just did not hear.
    Ms. Garvey. I know the controllers can who are following 
me.
    But in any case, they have increased the arrival rates in a 
place like Dallas-Fort Worth by about five or so an hour. If 
you look at some of the other tools, the collaborative 
decisionmaking----
    Senator Rockefeller. How do they do that? Are you the wrong 
person to ask?
    Ms. Garvey. I am probably the wrong person to ask. I am 
going to defer that to John Carr, who I know is going to have 
that answer.
    Senator Rockefeller. We will ask him when he comes, Okay.
    Ms. Garvey. All right, good. You get a head start, John, on 
that.
    But in any case, I can tell you very simply, because the 
technology is so precise, it allows the planes to travel closer 
together because they can navigate with a precision that they 
have not been able to in the past. By the way, I think that is 
the hope with the weather technology that you talked about and 
saw some of it at Herndon. Some of the weather technology is 
going to be so precise in predicting where those weather 
patterns are that it will allow us much more flexibility with 
respect to moving aircraft faster than we could in the past.
    So I think the weather technology is a great hope for the 
future, not just for efficiency, but obviously, even more 
importantly, for safety, as well as the Free Flight tools. I 
think the challenge is going to be first of all, as you have 
indicated, to get them out in time. We have been successful 
with Free Flight Phase 1, keeping that momentum, and so, 
frankly, keeping the consensus with industry. It makes all the 
difference in the world when we are coming up to Congress 
together and saying, this is what we need as an industry. This 
is what we need to get our job done. That is my hope, that we 
can continue to keep that consensus.
    Senator Rockefeller. Are there any instances--and this will 
be my final question, Mr. Chairman--are there any instances--
and this, obviously it is so important that it almost gets 
overlooked--where you want to deploy technology, and let us say 
that means the planes can land more closely, and airlines take 
a different view, either because of traditional ways of 
thinking or because they may not agree? Do you run into that 
kind of thing, or is there sort of an instinct on the part of 
both the FAA and the airlines, air traffic control, to do all 
of this without much argument?
    Ms. Garvey. Well, I think the instinct to increase capacity 
is there for all of us. I think sometimes, where there may be 
differences is determining the right tools to use, and places 
to put our resources to increase that capacity and improve 
safety. That is why again I think for us--and Secretary Mineta 
I think has really spoken about this quite eloquently, the need 
for all of us to come around the National Airspace System 
Operational Evolution Plan, because that really does lay out 
the tools and resources necessary to address delays, and it is 
a serious commitment.
    When you look at the plan--and we have had an opportunity 
to brief some of the staff members--it is not just us, the FAA, 
that is signing up for commitments, but it is the airlines 
saying, we will equip our aircraft in this time line, too, 
which can be very expensive for the airlines. And airports as 
well: we will sign up to do what we need to do.
    So it is a major commitment for all of us, not something to 
be taken lightly. And it does mean compromise in some cases. It 
does mean that perhaps individual airlines that may favor one 
technology for the good of the plan may say: we will hold back 
on that and focus our energies here. I think that is the right 
approach.
    Senator Rockefeller. Thank you, Ms. Garvey.
    Ms. Garvey. Thank you, Senator.
    Senator Rockefeller. Thank you, Madam Chair.
    Senator Hutchison. [presiding]. Thank you.
    Senator Fitzgerald.

            STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Thank you, Madam Chairman.
    Ms. Garvey, all the talk about including improving weather 
technology and computers and building new runways and new 
airports, that is really a long-term track that we have to work 
on, and you would agree, I am sure, that we need some short-
term relief, too, because all those things may well help us 
years down the road, but they will not help us this summer, for 
example.
    Is not our problem really with delays that our demand 
exceeds capacity?
    Ms. Garvey. Well, I think in some airports. Again, I will 
go to the benchmarks, which I think is a wonderful source of 
good data for us all to take a look at. What it does say is 
that in about eight airports, which is a handful of airports, 
we certainly have situations where demand is either at capacity 
or exceeds capacity at certain times of the day. LaGuardia is 
always, of course, the most extreme case that is mentioned.
    But you are right. At a handful of airports there are 
issues. I will say, and you may hear this from Mr. Merlis, I 
give the airlines a lot of credit for, in some of those cases, 
taking a hard look at their scheduling and asking, what they 
can do to smooth out the scheduling. Delta, American, 
Continental and United, are undertaking the same effort. So, 
voluntarily they have looked at some of their scheduling and 
asked whether they can smooth those peaks out.
    Senator Fitzgerald. I think your benchmark study showed 
that O'Hare had in good weather a capacity of about 203 
operations an hour, something along those lines.
    Ms. Garvey. I am not remembering the exact number, but that 
sounds right.
    Senator Fitzgerald. Now, what happens if the airlines 
schedule 250 flights in an hour?
    Ms. Garvey. Well, from the air traffic control perspective, 
as you know, in a deregulated environment they can do that. But 
in the case of air traffic control, from our perspective our 
mission is safety. So, that is when you often have the delays, 
because we really have to keep them----
    Senator Fitzgerald. So when the airlines are scheduling 
more flights than the appropriate has capacity to take off, you 
get these delays.
    Ms. Garvey. That is exactly what happens.
    Senator Fitzgerald. Now, going back a couple years ago, the 
FAA had authority to put delay controls on certain airports in 
the country, such as LaGuardia and O'Hare; is that not correct?
    Ms. Garvey. That is correct, Senator. That has not changed. 
We still have ground delay programs. If the weather is such 
that we feel that safety is at all an issue, then of course we 
would leave----
    Senator Fitzgerald. But that is only when the weather is--I 
mean, you do not have authority to limit how many--those delay 
controls are being completely removed this summer, is that not 
correct, at O'Hare?
    Ms. Garvey. No, not really, Senator. The collaboration that 
I spoke about means that----
    Senator Fitzgerald. Well, time out for a second. From 1969 
when O'Hare reached capacity until 2 years ago there were delay 
controls in effect at O'Hare.
    Ms. Garvey. Oh, I am sorry, Senator. You are referring to 
slots. I am sorry.
    Senator Fitzgerald. Slot rules.
    Ms. Garvey. You are talking about the slot rules.
    Senator Fitzgerald. But that was a delay control mechanism. 
I mean, it was meant to prevent delays.
    Ms. Garvey. Yes.
    Senator Fitzgerald. They had slots and there could only be 
so many slots in an hour, and we were lifting those delay 
controls in stages, first lifting the slots for, is it, 
international or regional jets, and that happened last year. 
Then this summer we are going to remove the rest of the delay 
controls.
    Ms. Garvey. I believe, Senator, it is phased in over a 
little bit longer period of time.
    Senator Fitzgerald. 2002? Okay.
    Ms. Garvey. 2002, I believe.
    Senator Fitzgerald. Now, is that going to help the delays, 
to lift all those delay controls or slot controls, as you call 
it?
    Ms. Garvey. Well, from a delay perspective, from simply a 
delay perspective, obviously when you look at the numbers at 
Chicago it is an area of concern for us. I am only speaking 
from the FAA's perspective, where safety is our primary 
mission. We have obviously committed to take a hard look at it 
with the airport and with the airlines. I think we have got a 
little bit of time to hopefully, as you suggest, put some 
initiatives in place to manage that transition.
    Congress put it in place in AIR-21, as you have indicated. 
Our challenge between now and 2002 is to make sure if there are 
any additional choke point initiatives that we can put in 
place, any changes to air traffic control procedures, that we 
do everything that we can, and also, by the way, encourage the 
airlines to do as they have done in some instances, take a hard 
look at their schedule. We all should want and I think we all 
do want it to be managed efficiently and managed well.
    Senator Fitzgerald. Well, I guess what I am getting at 
now--instead of proceeding with more questions, I would just 
like to make a comment. 2 years ago, I thought it was very 
unwise for Congress to lift the delay controls, or some people 
call them the slot controls, at O'Hare, because I had internal 
FAA studies that showed if you lifted those delay controls 
delays would go up exponentially.
    I had those charts on the Senate floor and I felt like 
Cassandra, destined to prophecy the truth and not be believed, 
because as soon as those delay controls were lifted the 
airlines just started way overbooking flights. There was no 
check on overscheduling of flights. Our newspapers in Chicago 
started doing investigative reports about how it was commonly 
at, let us say, 8:45 in the morning 25 flights would be 
scheduled to take off from O'Hare, when the airport could only 
take 3 flights off.
    So I just wonder if it would not be wise to give you the 
authority, until we have all these new runways, new airports, 
new technology, new weather equipment that is going to be years 
down the road. In the mean time, people are sitting on tarmacs 
waiting because there is nobody playing referee on the 
overscheduling of flights at these airports. I just wonder if 
you should not have the authority restored like you used to 
have. You have had it for 30 years at O'Hare. We have been at 
capacity for 30 years, but we did not used to have those delays 
until those delay controls came off.
    So I am wondering if giving you the authority to prevent 
those delays might help again.
    Ms. Garvey. Well, again, Senator, I will say that, at least 
from our perspective, we have got AIR-21 and those are the 
rules we are living by right now. We will focus very hard 
between now and 2002. We are certainly willing to work with 
Congress in whatever way we can. But we will focus and I think 
we should focus on working with the airlines and with the 
airport to put any measures that we can in place to manage it 
as best we can.
    Senator Fitzgerald. Thank you very much, Mrs. Garvey.
    Ms. Garvey. Thank you, Senator.
    Senator Hutchison. Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Mrs. Garvey, I was just looking through this 
GAO report. This is not a great report here.
    Ms. Garvey. Which report is that, Senator? I am sorry.
    Senator Burns. It is the ``Air Traffic Control Role of 
FAA's Modernization Program in Reducing Delays and 
Congestion.''
    We have been talking about new technology and new equipment 
and modernization. We have been waiting for our radar system in 
a couple places in Montana for I do not know how long. We ain't 
got it yet. But as I read through this report, there is one 
thing that just absolutely pops out at me in the FAA. Nobody 
seems to be accountable to anybody. The Chairman just 
reiterated here before this Committee the overruns in expenses 
and the delays in the deployment of the equipment, even though 
well-devised and well-engineered. We cannot get it in place. It 
is sitting around in crates at every airport in America almost, 
and nobody is accountable.
    I think you have got a cultural problem in the FAA, that 
they just do not give a damn. I really hate to say that, 
because we ask the same questions and we get the same results 
every year since I have been in the U.S. Senate.
    If you read through this report, basically if there is one 
thread of commonality it is that nobody is responsible to 
anybody about getting things done on time and on budget. Now, I 
can imagine that some overruns I can see we can have some 
problems.
    You say you go into a 10-year program here. 10 years do not 
mean nothing if you cannot get it deployed, if you do not have 
people out there that is dedicated to getting it done.
    I talked to some people that is in your control center here 
in Virginia. I happen to know some people that we have sort of 
the same interests and meet them at different occasions and, I 
do not know, there is just a lack of dedication, of trying to 
address this problem. I really hate to say that. It is just not 
your problem. It goes back years.
    I am just sorry to say that. But there is one common thing 
in here in this GAO report, is the lack of cooperation even 
among the people in your own agency, and the overruns and the 
dedication of getting it done. I do not know how to address 
that. I think there is a cultural thing in the FAA, and I have 
heard people talk about that for years and I really did not 
believe it for a while. But boy, I do now.
    It is just like I say, we have got a couple of dark spots 
in Montana.
    Senator Hutchison. What do you mean, cultural thing?
    Senator Burns. Well, I think it is a cultural thing where 
they just do not care. I really do. I think it is a lack of 
commitment from the FAA to really get these systems in place. 
And there is nobody accountable. Nobody says, why is it not in 
place? Well, we only work until 4:30 in the afternoon and 
everybody goes home.
    I just think it is--FAA has had problems deploying other 
equipment and technologies, weather, convergence. It just goes 
through this whole report. If you will read the report, that 
basically is what they are saying. I know a lot of good people 
in the FAA, but I will tell you, nobody is accountable. They 
come up with these excuses why we cannot get it installed, or 
why this is.
    I still say that we have got new technologies such as the 
GPS system. You know, what is it, they say right now 85 percent 
of the commercial traffic only takes up 5 percent of the 
airspace. The old system, we are still trying to use part of 
the old system because somebody in the FAA: I have been here 18 
years and that is the way we have done it and that is the way 
we are going to continue to do it.
    That is just not going to get it done. It is not acceptable 
today. Now, I agree that the airlines take advantage sometimes 
when there is just too many flights and too few slots in the 
capacity of the airport, and then you get a little weather and 
then you are really in a bug. I go through this all the time. I 
mean, it is a crapshoot when I go from here to Billings, 
Montana, I will tell you that right now.
    I still say that I can go through Denver or Minneapolis or 
Salt Lake with three different airlines, and I will guarantee 
you I will pick the wrong one. But the other day in 
Minneapolis, same thing. A rain shower goes through there--and 
that weather did not look any different than it looked when I 
worked for the airlines 100 years ago. Well, it was not 100, 
but it is almost. It seems like that many. But I do not think 
we had the delays then that we have now. Of course, we did not 
have as many airplanes, but nonetheless.
    But I just go through this thing every time I go home. Now, 
it ain't much to you folks that live on the East Coast, but to 
us who have to spend 6 and 7 hours to get home and 6 to 7 hours 
to get back. Then you run into these problems like Minneapolis, 
like Denver, and like Salt Lake. It is a crapshoot.
    Ms. Garvey. Senator----
    Senator Hutchison. I would like to ask Ms. Garvey to 
respond.
    Ms. Garvey. Thank you very much. First of all, I want to 
really say how very seriously I take that comment about 
accountability. I think when I came to the FAA I heard a lot 
about that issue. Certainly, Secretary Mineta has talked about 
it as well. I think it is absolutely critical that we hold 
people accountable. I am trying very, very hard to do that.
    We lost a lot of time in the eighties and I think the 
Chairman really talked about that in her opening statement. You 
referred to that as well. What I can only do is focus on the 
3\1/2\ years that I have been there. I think if you look at all 
of our major programs, you are going to see new program 
managers, people who are approaching it very differently. If 
you meet somebody like Charlie Keegan, who is heading Free 
Flight Phase 1 and Phase 2, you will hear and you will see a 
manager who is holding people accountable.
    There are some technologies which are extraordinarily 
difficult. We are the first ones to do it. WAAS is one of 
those. I always know that there is more to do. But please 
understand I am taking that issue very seriously. If you do 
look at some of those programs we have put in place over the 
last couple of years, I think you do see a different attitude. 
I certainly hope you do.
    I will always say that there is more that we need to do and 
we can never take that too seriously. But you certainly have my 
commitment to that. I am going to go back and look at those 
radars in Montana that you just spoke about.
    Senator Burns. Well, I tell you what. If I held my breath 
until we get those things, it would just be something.
    Ms. Garvey. I do not know that issue well enough.
    Senator Burns. But if there is one thing, if there is one 
common thread that runs through this report----
    Ms. Garvey. It has been a while since I have looked at that 
one in particular, but I know I have talked to Mr. Dillingham, 
too, and I think they would acknowledge that we have made some 
progress in the last 3 years. I know they have great concern 
about AAS and the efforts in the eighties, and that is 
something that I would fully acknowledge and agree with.
    But again, thanks to Congress, with a 5-year term I think I 
am there a little longer than others have been and that does 
give you a little more opportunity to really stay the course.
    Senator Burns. Well, you know, I am still a good friend of 
the previous director before you and we talk about this. We 
talk about this a lot. it is just one of those things. I think 
if we cannot get a handle on it, then I think Congress is going 
to have to step in and do something, reorganize, or we are 
going to have to do it differently. I would just kind of shoot 
that little shot across the bow, because I know you have got 
some good people.
    Ms. Garvey. We do, very good people.
    Senator Burns. You have probably got more good people than 
you have got people who drag their feet. But them foot-draggers 
have got to go, they have just got to go. How you get rid of 
them I do not know, but we will find a way.
    Thank you, Madam Chairman.
    Senator Hutchison. Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Madam Chairman.
    Welcome, Ms. Garvey. Just to followup on some of the issues 
Senator Burns raised, as the GAO report indicated, I think the 
year 2000 was the worst year on record--more delays, 90 percent 
increase in delays, 104 percent increase in cancellations 
compared to 5 years ago. Obviously, we see no end in sight, 
with the demands increasing, the number of airlines, and so on 
and so forth.
    The modernization program has not been completed that was 
originally intended for 1993, far before your tenure. Now it is 
more than double the cost, and not expected to be completed by 
somewhere around 2012.
    So obviously it does raise a lot of concerns about how much 
worse does it get before it begins to get better. I notice in 
the GAO report it indicated, in reference to what Senator Burns 
was raising about the climate and the culture in the agency, 
that a new chief operating officer has been hired. How long----
    Ms. Garvey. Actually, has not yet been hired.
    Senator Snowe. Has not yet.
    Ms. Garvey. But Congress gave us wonderful flexibility to 
hire a chief operating officer, as well as to put in place an 
oversight board. We have got a search firm working hard on it. 
But I have to tell you, it has been a real challenge. It is 
difficult to recruit, in part because of the salary. I know the 
Secretary has mentioned that. I know the bill that you all are 
contemplating does suggest raising that salary, which I think 
is a help.
    Senator Hutchison. Senator Snowe, just to inject here, the 
bill that we are going to mark up next week will have the 
ability to take the cap off that salary, to try to get the very 
best person, because I agree with you that is the key on that 
subject.
    Senator Snowe. Well, that is very, very important. As the 
report indicates, should greatly help to improve the climate 
and moving forward on the modernization program and pulling it 
all together and consolidating the effort. So we want to be 
able to help in that regard. So hopefully we can move that 
along so that you can do what you need to do to hire the right 
person.
    In response to some of the issues raised concerning Logan 
Airport, and I know we have talked and my office has spoken 
with you as well, as you know there has been some discussions 
and reports about Logan in response to their environmental 
report on expansion of a runway suggesting that somehow there 
may be a peak pricing proposal. There is no question that would 
certainly have an adverse impact on small communities in my 
state that really do wholly depend on Logan to get to other 
destinations.
    In fact, from Presque Isle, Maine, in order to get there 
you have to go through Boston. Bangor and Portland as well are 
very important on going through Logan. So obviously this could 
have some serious consequences for the smaller communities in 
Maine if we go to peak pricing, because obviously what we are 
talking about here now, if there are higher prices imposing 
different pricing at peak hours, then obviously it is going to 
affect these flights with smaller airplanes and connecting to 
major destinations.
    Has there been any analysis on peak pricing?
    Ms. Garvey. Senator, actually we have done a fair amount, 
not specifically at Logan, but we have done some analysis of 
peak hour. In addition, the Inspector General is also looking 
at the whole issue of demand management. I believe he is 
expected to issue a report some time this summer.
    Just to go to Logan very specifically, while they have put 
it in the environmental document, they have not yet come 
forward with fleshed out any kind of proposal. You have hit on 
what I think is one of the greatest challenges with any of the 
demand management strategies.
    LaGuardia is going through some of the similar issues. That 
is, if you take on something like demand management strategies, 
how do you also meet and deal with the very important public 
policy questions that Congress has raised great concerns about?
    Low-cost carriers, startup carriers, is one. Certainly 
access to small communities is another. As we have talked about 
it internally, and again, we have not seen anything formal from 
Logan Airport, we have certainly sent the message that any kind 
of policy change or any kind of initiative that they would like 
to propose has to, in some way, deal with those two very 
important public policy questions.
    It does not leave the purest, if you will, economic 
strategy in place, but that is all right. In our view we have 
other public policy issues that are equally as important.
    Senator Snowe. So how would that come about on the peak 
pricing? Ultimately, would it be the Mass Port Authority that 
would make the final decision?
    Ms. Garvey. Well, that is very interesting because we are 
actually having that discussion right now just in a broader 
sense. We believe it is much more a federal prerogative, and in 
fact I think we have had pretty extensive discussions with 
Members of this Committee's staff. I think the Committee 
Members have expressed the concern as well, that we make sure 
to hang onto our federal prerogative, if you will.
    So while they might propose something, they would certainly 
be working very closely with us and we would ultimately be the 
ones who would either issue a notice of proposed rulemaking or 
whatever. We have been very clear that we are extraordinarily 
concerned with the public policy issues that were laid out in 
AIR-21 and that this Congress has talked extensively about.
    Senator Snowe. I appreciate that, because it really does 
get back to the question of how we are going to incorporate the 
roles of regional jets and turboprops and smaller aircraft.
    Ms. Garvey. Absolutely.
    Senator Snowe. Otherwise, I think the smaller communities 
are affected on both ends. Either they do not have any service 
or they have smaller aircraft, but yet they cannot get to the 
locations and destinations at the appropriate times in order to 
get to where they are going. So this is really a huge problem 
and one I think ultimately is going to have to be determined by 
us in terms of what kind of role are we going to carve out for 
regional jets and smaller aircraft for smaller communities.
    They have to have their place, because they will never be 
able to compete with the larger communities and larger 
aircraft. So it is going to continue to be a major problem 
unless we decide how best we want to address that issue to 
ensure that they do have a place in our aviation policy. 
Otherwise they are always going to get the short end of the 
stick.
    Ms. Garvey. I appreciate those comments and we will 
certainly stay very close to your staff on these issues as we 
hear more from Logan.
    Senator Snowe. Thank you. One other question. You mentioned 
your spring-summer 2000 plan, which was a joint effort by the 
Department of Transportation, the FAA, Labor, and the airlines. 
To what extent were you able to increase capacity as a result 
of that plan? Were you able to do that?
    Ms. Garvey. I am not sure I can give you an actual 
percentage about how much we were able to increase capacity. 
The goal going in was to manage the system more efficiently and 
to do it in a much more collaborative fashion. Clearly, the raw 
delay numbers, went up.
    I mentioned in my opening statement, that collaboration 
begins every morning at 5 a.m. We have the first phone call 
with all of the airlines. They hook in to Herndon. We update 
our plan every couple of hours. That is particularly critical 
on bad weather days. On a day like today, those are very quick 
conference calls.
    We are developing the plans together, deciding where and 
when the ground stops have to be put in, and it is done in a 
much more collaborative fashion. We learned a lot from last 
spring and summer. We have implemented all of the 
recommendations that came out of the review.
    So I think that is still the right approach and should be 
the approach as we move forward. By the way, we are doing this 
now 24 hours a day. We are really working this issue really 
around the clock with the airlines.
    Senator Snowe. Thank you very much. Thank you for your hard 
work.
    Ms. Garvey. Thank you, Senator.
    Senator Hutchison. Let me ask a couple of questions. I 
waited until the end, but I do have a couple of questions that 
I think have not been addressed.
    One of the areas in which the FAA has invested heavily is 
to harness satellite navigation for commercial aviation. In the 
past year or so, the $2.9 billion Wide Area Augmentation 
System, WAAS, has suffered significant technical problems. 
Nevertheless, an independent review board found the underlying 
WAAS concept to be sound.
    What are you doing to ensure that the scheduled arrival 
dates will be met, and do you think WAAS is reliable enough, or 
is satellite technology reliable enough, that it is going to be 
a major component of our future air traffic control system?
    Ms. Garvey. Senator, I will start with the last part. I 
think it is going to be a major component of our future system. 
It is I think going to help enormously, not just in the area of 
safety, which again is so critical, but also in the area of 
efficiency and accuracy.
    You are absolutely right. I think it is one of the most 
technologically challenging initiatives. There is no one else 
doing this. You mentioned the independent review board. It was 
extraordinarily helpful to have them do the review. I might 
add, we are keeping them on board to continue to work with us 
as we move forward with this program.
    We have a very clear schedule set out with Raytheon. It is 
a challenging schedule. I am going to be visiting Raytheon on 
Monday with the express purpose of really talking about WAAS 
and some of the other programs we have with Raytheon. So I 
think it is important that we really stay the course together 
and that we honor the schedule that we have agreed to jointly. 
I think that is going to be very challenging as we move 
forward.
    We have got about five or six folks within the FAA that 
really are the WAAS experts. We rely on them. They are working 
very, very hard. Raytheon has a core group as well. I think the 
key is going to be staying the course on the schedule. The help 
we have received from Congress in the past will be again 
increasingly important as we move forward.
    One of our dilemmas has been that sometimes the funding has 
dipped. So staying the course on the funding will be very 
important as well.
    Senator Hutchison. If the satellite system is going to be 
reliable and you can prove it, you will have the funding from 
Congress to do the job and do it right.
    But, the FAA has probably lost the confidence of the 
appropriations Committees, through missed deadlines and cost 
overruns.
    Ms. Garvey. I think you are absolutely right. We have 
certainly acknowledged that internally, too. We have said we 
cannot ask you for the funding unless we can commit to you that 
we are going to stay on schedule and do everything we can to 
keep Raytheon on schedule as well.
    I will mention that GAO and the Inspector General have also 
focused on this program with us, and I think that has been 
helpful and will continue to be helpful. We will turn to their 
validation as well as we move forward.
    Senator Hutchison. Ms. Garvey, you spoke in your opening 
statement briefly about the choke points. There are seven so-
called choke points throughout America which affect the whole 
system. You get over Chicago or LaGuardia or Boston and you get 
into the delays, which then go all the way to the West Coast. 
Tell me what you are doing to reduce the congestion at the 
major choke points?
    I think it is going to be very important as we try to solve 
these delay issues that we do the long-term things, that we 
expedite the reviews for new runways, that we get new gates, 
that we are more creative in the spending that can create new 
gates. We want to control that ground congestion. We are 
looking now at the air traffic control system for the air 
congestion because that is a major factor.
    But that is long term. Everything we are talking about is 5 
to 10 years out and we want to do that and we want to do it 
right, but in the mean time we have a lot of angry and 
frustrated passengers. I am one of them. Senator Rockefeller is 
one of them. Senator Burns is one of them. We are in this 
system every week and we are frustrated.
    So is there some short-term action that you can take, such 
as alleviating this congestion at the choke points and other 
measures? Talk to me about what you are doing for the short 
term.
    Ms. Garvey. Thank you, Senator. Again, you have said it I 
think extraordinarily well. That is, we really do need to look 
at those short-term initiatives, and they are often the kinds 
of initiatives that do not necessarily involve technology, but 
are things that we can do in collaboration with the airline and 
with the controllers.
    You spoke about the seven choke points. You are right, they 
are in that triangle between Chicago, Boston and Washington. In 
each one of those areas, we really focus primarily on some of 
the procedural changes that we could make or opening up new 
sectors.
    We focused the first 11 initiatives in the New York-New 
Jersey area because, that really is a problem. We have been 
able to change the procedures in and out of the westbound and 
the northbound to the New York-New Jersey area. That has 
produced about a 25 percent reduction in unplanned departure 
stops for northbound and westbound. That is very positive.
    Senator Hutchison. You are seeing that now?
    Ms. Garvey. We are seeing that now. We have had those 
initiatives in place for several months.
    Last week we opened up three new sectors, which essentially 
provide a work area for the controllers in the Cleveland 
center, one of our busiest areas. That is going to be a help.
    By the way, a tremendous amount of credit is due to the 
controllers, who have been very much part of this with us and 
have in some cases even taken on some additional 
responsibilities. They have done this extraordinarily well.
    So we are opening up those new sectors. I spoke a little 
bit earlier about the memorandum of understanding we have with 
Canada, which opens up some of the Canadian airspace, which on 
bad weather days can accommodate up to 300 or 400 aircraft. 
That is very good news.
    The Department of Defense as well has worked with us to 
open up some of the restricted military airspace. So those are 
some of the short-term initiatives that we can take. That, 
coupled with some of the steps that the airlines are taking in 
terms of smoothing out some of their scheduling practices, I 
think are helpful in the short term.
    Senator Hutchison. Do you feel that the airlines are fully 
cooperating with you? Are you able to coordinate with them 
easily, and is that making a difference?
    Ms. Garvey. I think the relationship with the airlines is 
better now than it has ever been. I really do not rely just on 
my own observations because I certainly have not been around 
forever, although it seems like forever. But people have told 
me that it is better than it has been. There are always going 
to be differences and there are different approaches. But I 
will tell you, I have hooked into those conference calls in the 
morning, and heard the operations folks really talking directly 
to each other about what can we do to solve this problem.
    These are very action-oriented people on all parts of this 
industry. Those conference calls are very encouraging in terms 
of the kind of collaboration.
    Senator Hutchison. Thank you so much for spending your time 
with us this morning. It has been very helpful.
    Senator Rockefeller, I am sorry. We certainly have a second 
round.
    Senator Rockefeller. No, I just want to ask one question 
because I have to leave, and I want to ask it to you. Here it 
says eight airports account for 75 percent of the delays. 
LaGuardia, no plans for a new runway. They had the highest 
delay rate in the country last year. This kind of thing just 
drives me crazy.
    So they say, well, Okay--I mean, this is my view--put in 
two new runways at LaGuardia. The Port Authority goes crazy: 
Cannot do that, shipping lanes. You know, at some point all of 
these games can be played out, and I do not know how important 
shipping is and I do not know how wide the lanes are, but I 
grew up in that city and I have landed at that airport a 
thousand times and there is lots of water around. I have never 
steered a ship, but I do know that LaGuardia is responsible for 
a lot of what is going on that is bad in this country in terms 
of air delays.
    They are a big state. They have powerful people and all 
that kind of stuff. I do not really care. The point is they 
have a responsibility to contribute their part to the solution 
of this thing, because they are mucking up--Conrad Burns was 
saying you folks do not have this in the East. Hogwash. We have 
enormous problems of delays, etcetera, in the East.
    A lot of it stems out of LaGuardia and other places. There 
is a reason that Teterboro has more airplanes flying in and out 
of it than LaGuardia, because LaGuardia is underfunded. Every 
time I drive to that old what is now the Delta Shuttle thing, 
which used to be when I was growing up the entire airport, I 
think, you know, things really have not changed that much. Of 
course they have, but they have changed nowhere near what is 
required.
    So we are asking all kinds of people to make sacrifices, 
people to have teleconference calls every morning and every 2 
hours and discuss all of this and that, but LaGuardia does not 
want to make any changes, no runways: I am sorry, we are not 
going to do it. I just find that unsatisfactory.
    Their Port Authority is not a big part of my life, never 
will be. Maybe that started with that powerful guy that used to 
be the chairman of the Port Authority, who they wrote a book 
about, that I am afraid my Uncle Nelson appointed to that 
position.
    But no more runways is an unacceptable answer. If you go to 
the public, the public concern versus shipping transport 
concern, I cannot imagine it would be--it would be 99 to 1. So 
I would just like some kind of--I want you to have a first, 
second, third, and fourth term, so I do not want to get you in 
trouble. But how do you respond to that? Why is LaGuardia so 
sacred that they cannot do anything to help the rest of the 
nation?
    Ms. Garvey. I think when you look at the benchmarks you are 
exactly right. When we did the benchmarks, we also put in what 
do these airports have planned. So we did not put down any sort 
of wish list. We said what is real, because otherwise if you 
start saying what is possible or what do we think is going to 
happen, then it may sort of really underplay the problem.
    At LaGuardia they have been very, very straightforward 
about saying they believe from an environmental point of view 
they cannot build a new runway. I have to say the environmental 
hurdles are huge. So we have told them, all right, here is what 
we know is coming your way in terms of procedures and in terms 
of technology, but it is still not going to give us enough. 
Now, that is the starting point with LaGuardia. That is the 
starting point with the airport directors. We have got the 
lottery in place, which has helped. But I think everyone hopes 
that the lottery is not long term. Whether or not it has to be 
may be a question for another day. But we have taken a cut at 
what we know will be the issues.
    I do have to say I think at LaGuardia the environmental 
issues around a runway would be pretty extraordinary. But you 
know, if we are all willing to take that on----
    Senator Rockefeller. Well, I am sure they would be. They 
are pretty extraordinary, what comes out of the tailpipes of 
sport utility vehicles and all kinds of things, but that is one 
of the reasons that there probably is going to be a change on 
what those folks get to do in terms of their low mileage. 
People have to make sacrifices.
    Madam Chairman, I am not going to go on and on with this, 
but to have New York, the perceived center of all financial 
power and decisionmaking--this is not acceptable. It kills us 
in West Virginia, those delays. I remember what was it, 
Alexandria or Arlington: No, they could not have any more 
slots. Well, I guess I have got friends, or did have friends, 
in Alexandria or Arlington. But that did not stop; we did not 
do 24, we did 12. People have to make an adjustment, or else 
they cannot complain. Obviously, people are going to complain, 
and they have a right to complain.
    But that means that every single part of this country, not 
just rural America at the end of the food chain, has to give up 
their flights and their future and their economy and their 
people staying in the state so that LaGuardia and a couple of 
other places can retain their liquid sanctity.
    Senator Hutchison. Thank you very much. We appreciate the 
time you have given us today. This will help us monitor the 
progress that is being made, and we look forward to having some 
final proposals on the full system, because we want to 
understand how and why other countries have done better than 
the United States in managing air traffic. So we will look 
forward to working with you on some final conclusions so that 
our passengers will continue to want to use the airways. This 
is very important for us.
    Thank you.
    Ms. Garvey. Thank you very much. Thank you, Senator.
    Senator Hutchison. Now I would like to call our second 
panel: Dr. Gerald Dillingham, Mr. John Carr, Mr. Richard Vacar, 
and Mr. Edward Merlis.
    [Pause.]
    Thank you all very much for patiently waiting. Let me start 
with Dr. Dillingham. Obviously, the GAO reports are getting a 
lot of notice here, and I would like to ask you to tell us 
about those reports and what you think we ought to be doing.

           STATEMENT OF GERALD L. DILLINGHAM, Ph.D., 
              DIRECTOR OF CIVIL AVIATION ISSUES, 
                   GENERAL ACCOUNTING OFFICE

    Dr. Dillingham. Thank you, Madam Chairman. We appreciate 
the opportunity to be here today to talk about GAO's 
perspective on ATC modernization. We want to try to cover a 
little bit of the past, present, and what we think the future 
holds for ATC modernization, particularly as it relates to the 
congestion crisis.
    As you know, until relatively recently there was an ongoing 
debate in the aviation community as to the cause of the crisis. 
More recently, the aviation community in concert with the 
Congress, has moved from attribution to cooperative and 
comprehensive initiatives for problem solution.
    ATC modernization is an example of an initiative that has 
been under way in one form or another for 20 years. The bottom 
line is that efforts to modernize the air traffic control 
system have not kept pace either with the emergence of new 
technologies or the growing demand for air travel. What started 
out in 1981 as a 10-year, $12 billion program now has a budget 
of around $44 billion through 2005, with no end in sight.
    In most of the hearings at which GAO has testified about 
the status of ATC modernization, our message has been pretty 
constant. The message was that most of the projects were 
significantly behind schedule, over budget, and would not be 
able to deliver the capabilities that were originally thought 
that they could do. Because of these circumstances, in 1995, we 
designated the modernization program as a high-risk program and 
it remains on the GAO high-risk list as of today.
    We also identified what we believe to be the root causes of 
the modernization problem and we made over 30 recommendations 
over the years to address these root causes. In summing up the 
past, I think it is accurate to say that a significant 
proportion of FAA's investment in modernization to date has not 
been directed at enhancing system capacity or efficiency, but 
toward establishing platforms for capacity or efficiency 
enhancements to come later.
    The Display System Replacement, or DSR, which is oftentimes 
cited as a success, is an example of platform development. This 
is a program where FAA has replaced the air traffic 
controllers' black and white radar screens with color screens. 
This was done as a precursor to obtaining more up-to-date 
software that will eventually contribute to greater system 
efficiency. This is similar to your upgrading your personal 
computer monitor so that you can use the new, more complex 
software.
    Shifting our focus from the past to the present, to its 
credit we say that FAA has been responsive to the 
recommendations that others and we have made and they have 
initiated numerous activities that address the problems 
identified. Probably most significant, the agency shifted to 
what is called spiral development. This is sometimes also 
referred to as ``build a little, test a little, deploy a little 
philosophy,'' rather than the all at once, big bang approach to 
project implementation.
    Additionally, the Congress has provided the FAA with 
procurement and personnel flexibility and additional funding 
resources. There are still challenges to be met. It is still 
the case that several of the major modernization projects are 
behind schedule, over budget, and may not be able to provide 
the services they were originally intended.
    With regard to the future of ATC modernization, I think the 
plan for the Free Flight program provides a good illustration 
of what we might expect in the future. The goal for ATC 
modernization is to move from the current ground-based system 
to a satellite-based system that would, among other things, 
allow pilots to select their routes rather than follow the 
highways in the sky. This concept is called Free Flight.
    The FAA has divided the effort into three phases, with a 
principal objective of getting some of the program benefits to 
the users as soon as possible. At the request of Senator 
Rockefeller and this Committee, we are currently doing an 
examination of the status of the Free Flight program. However, 
our preliminary findings are suggesting that there are still 
some significant challenges associated with this program.
    We are really concerned whether the program will happen on 
time and, again, within budget, and will it be able to perform 
as it was advertised. We are also finding that, as in other 
areas of the agency, there has been a lot of good planning, but 
somewhere along the implementation path something happens to 
prevent implementation from matching the plan.
    In the final analysis, our work further confirms that the 
causes of the congestion crisis are multifaceted and 
interdependent and will require multifaceted and interdependent 
approaches for solutions. For example, it is true that the best 
way to gain the greatest amount of capacity is by increasing 
infrastructure, particularly runways. But the construction of 
runways is by no means a stand-alone solution. The capacity 
increase associated with runways will be significantly 
diminished if the appropriate navigational aids, procedures, 
and enabling technologies generally associated with ATC 
modernization are not also in place.
    Similarly, as solutions are being proposed for modernizing 
ATC, there are potentially serious human capital questions, 
such as whether there will be enough qualified air traffic 
controllers available to use the new technology and handle the 
increase in traffic, will there be enough qualified aviation 
mechanics to maintain the expected growth in the number of 
aircraft.
    As has been said many times before, there is no silver 
bullet solution. Our ongoing work for this Committee shows that 
there are more than 50 different initiatives planned or under 
way by various segments of the aviation community to address 
the capacity challenge. There are initiatives for the short 
term, mid-term, and long term. In other words, there is no 
shortage of initiatives or proposed solutions.
    What we found to be the Achilles heel of the agency is 
implementation and accountability for results. We are hopeful 
that the position of chief operating officer will soon be 
filled and in turn will provide the core of accountability and 
desirable appropriate levels of accountability to the 
executives in FAA and the organization as a whole.
    We are also hopeful that one of the chief operating 
officer's top priorities will be to oversee the implementation 
of FAA's recently released operational evolution plan, the 10-
year plan.
    Foremost, it is critical that this Committee and other 
committees of the Congress continue its close oversight to 
ensure implementation and accountability.
    Thank you, Madam Chairman.
    [The prepared statement of Dr. Dillingham follows:]

 Prepared Statement of Gerald L. Dillingham, Ph.D., Director of Civil 
               Aviation Issues, General Accounting Office

    Madam Chairman and Members of the Subcommittee:
    We are pleased to be here today to discuss the Federal Aviation 
Administration's (FAA) modernization of the nation's air traffic 
control (ATC) system and its relationship to the initiatives under way 
to address the escalating crisis of insufficient capacity facing the 
aviation industry. During the past two summers, major delays and 
congestion at our nation's airports have focused attention on the 
increasing gap between the demand for and the capacity of the national 
airspace system (NAS). The NAS includes the airports, other facilities, 
equipment, and people involved in providing air transportation 
services. The ATC system is the major component of the NAS and 
primarily refers to the equipment, technologies, and people responsible 
for keeping aircraft safely separated. Reducing delays and congestion 
in the NAS is a major challenge because the causes as well as the 
solutions are numerous and interconnected.
    As policymakers assess potential options for increasing the 
capacity of the NAS, it is important to understand FAA's past efforts 
to modernize the ATC system and its ongoing initiatives to deploy new 
technologies. Our testimony today, based largely on work that we have 
done on FAA's modernization over the past decade, will highlight (1) 
the extent of the delay and congestion problems and the contribution of 
the ATC system to them, (2) the progress and problems encountered in 
FAA's ATC modernization program, and (3) the importance of a continued 
focus on delivering ATC equipment and on human capital issues as 
policymakers seek to address delays and congestion. In summary:

  <bullet> The NAS is facing significant capacity problems. Last year, 
        more than 1 out of every 4 flights nationwide was canceled, 
        delayed, or diverted. These actions affected 163 million 
        passengers, who, on average, were delayed almost an hour. 
        Demand is still growing; FAA forecasts nearly a 59-percent 
        increase in passenger enplanements from 1999 to 2011. 
        Inefficiencies in the ATC system contribute to the delays and 
        congestion. Other factors, such as an insufficient number of 
        runways at some airports and bad weather, aggravate these 
        problems. Modernizing equipment, along with other changes in 
        the ATC system, is expected to help increase the capacity of 
        the NAS by between 5 and 15 percent. In addition to this 
        effort, FAA and the aviation industry have over 50 initiatives 
        in various stages of implementation to address delays and 
        congestion.

  <bullet> Twenty years ago, FAA anticipated significant increases in 
        the nation's air traffic and embarked on an ambitious 
        modernization program to help improve the efficiency of the ATC 
        system and expand the capacity of our nation's airspace. 
        Although air traffic has greatly increased, the improvements 
        expected from this modernization program have fallen short. 
        While FAA has installed new equipment to provide the necessary 
        platform for fielding modern technologies to improve 
        efficiency, this effort has experienced cost, schedule, and 
        performance problems. As part of this program, FAA has begun to 
        deploy new technologies to achieve free flight, which will 
        enable pilots and controllers, under certain circumstances, to 
        select optimal flight paths, thereby lowering costs and helping 
        to accommodate more flights in our nation's airspace. However, 
        FAA faces challenges in implementing these technologies. These 
        include integrating the technologies with each other and other 
        ATC systems to achieve the synergies anticipated, as well as 
        determining the impact of using the free flight technologies on 
        users, including controllers and technicians. Other major 
        modernization projects being developed to help increase the 
        capacity of the NAS are also experiencing cost, schedule, and 
        performance problems.

  <bullet> FAA and the aviation industry recognize the interdependence 
        of the various components of the NAS--the people, equipment, 
        and procedures--and the need for cooperation and coordination 
        to effectively implement solutions. In the future, FAA's 
        modernization program will continue to be an important part of 
        the solution; therefore, FAA needs to avoid repeating the past 
        mistakes that have plagued its program. Although FAA has taken 
        steps to help ensure that it can deploy new equipment and 
        technologies as planned, it has yet to fully institute a 
        performanceoriented culture, which is essential to establishing 
        a climate of accountability and coordination throughout the 
        agency. The new chief operating officer, who will be 
        responsible for improving the delivery of air traffic services, 
        should greatly help the agency establish this climate. FAA and 
        the aviation industry will also need to address human capital 
        issues related to the retirement, expected within the decade, 
        of many aviation industry professionals, such as FAA 
        controllers and airline mechanics.

Background
    The National Airspace System (NAS) is a complex collection of 
systems, procedures, facilities, aircraft, and people. Because these 
components are interconnected and interdependent, they must work 
together as one system to ensure safe operations. The principal 
component of the NAS is the air traffic control (ATC) system--a vast 
network of radars; automated data processing, navigation, and 
communications equipment; and traffic control facilities.\1\ Through 
this system, FAA provides such services as controlling takeoffs and 
landings and managing the flow of traffic between airports.
---------------------------------------------------------------------------
    \1\ FAA uses three types of facilities to control traffic. Airport 
towers direct traffic on the ground, before landing, and after takeoff 
within 5 nautical miles from the airport and about 3,000 feet above the 
airport. Terminal radar approach control facilities sequence and 
separate aircraft as they approach and leave airports, beginning about 
5 nautical miles and ending about 50 nautical miles from the airport 
and generally up to 10,000 feet above the ground. Air route traffic 
control centers, called en route centers, control planes in transit and 
during approaches to some airports. The airspace that most en route 
centers control extends above 18,000 feet for commercial aircraft.
---------------------------------------------------------------------------
    Faced with a rapidly growing volume of air traffic and aging 
equipment to control it, FAA initiated an ambitious program in 1981 to 
modernize its ATC system. Over the past two decades, FAA's 
modernization projects have experienced substantial cost overruns, 
lengthy delays, and significant performance shortfalls. Because of the 
size, complexity, cost, and problem-plagued past of FAA's modernization 
program, we have designated it a high-risk information technology 
investment since 1995.\2\
---------------------------------------------------------------------------
    \2\ FAA's modernization program is one of four high-risk system 
development and modernization efforts. See High-Risk Series: An 
Overview (GAO/HR-95-1, Feb. 1995), High-Risk Series: Information 
Management and Technology (GAO/HR-97-9, Feb. 1997), High-Risk Series: 
An Update (GAO/HR-99-1, Jan. 1999), and High-Risk Series: An Update 
(GAO-01-253, Jan. 2001).
---------------------------------------------------------------------------
    In 1998, in collaboration with the aviation industry, FAA revised 
its approach to NAS modernization to move from its traditional system 
of air traffic control, with heavy reliance on procedures, to a more 
collaborative system of air traffic management. FAA has begun testing 
some of the technologies--or tools--under this new environment, known 
as free flight, which are intended to help improve safety and increase 
the efficiency of the NAS. Despite some unresolved challenges, FAA has 
been moving aggressively to complete the initial deployment of these 
technologies by 2002.
    Measuring the capacity of the NAS and achieving its most efficient 
use are both difficult challenges because they depend on a number of 
interrelated factors. The capacity of the NAS is affected by such 
factors as the number and type of aircraft seeking access, weather 
conditions, flight schedules, and airports' infrastructure. Achieving 
the most efficient use of the NAS is largely contingent on the 
procedures FAA uses to manage traffic, how well its equipment performs, 
and the proficiency of the controllers to efficiently use this 
equipment to manage traffic. Under the best of circumstances, capacity 
usually meets the demands for service. But, as we have experienced all 
too often, whenever any factors diminish capacity, congestion and 
delays result.

The National Airspace System Is Experiencing Significant Capacity 
        Problems
    The growing demand for air travel has fully taxed the capacity of 
the NAS, including the ATC system. Airline passengers are experiencing 
increasing flight delays and cancellations from the growing imbalance 
between their demands and the ability of the NAS to handle air traffic. 
Last year, more than 1 out of every 4 flights nationwide was canceled, 
delayed, or diverted. These actions affected 163 million passengers, 
who, on average, were delayed almost an hour. FAA reported that 1.9 
million passengers moved through the system daily, and it forecasts a 
59-percent increase in the number of enplanements between 1999 and 
2011. Delays and cancellations are also increasing. In 2000, which was 
the worst year on record, FAA reported a 90-percent increase in delays 
and a 104-percent increase in cancellations compared with 5 years ago. 
The imbalance between demand and capacity is most pronounced during 
peak flying periods at the major airports through which major airlines 
route their flights, commonly referred to as hub airports.
    Inefficiencies in the ATC system, along with the lack of adequate 
airport infrastructure, airline scheduling practices, and bad weather 
are among the many factors contributing to delays and congestion. Some 
in the aviation industry have also attributed delays to antiquated ATC 
equipment. They expect the use of modern equipment to vastly expand the 
capacity of the NAS.
    While acknowledging inefficiencies in the ATC system, particularly 
in moving traffic in and out of the congested airspace around airports, 
FAA disagrees with the assertion that aging equipment is to blame for 
delays. The agency maintains that in recent years, it has replaced the 
majority of the equipment at many of its air traffic control 
facilities. While it is true that much of the equipment, especially in 
the en route centers is modern, this equipment was expected to be in 
place much earlier. As for the expectation that ATC modernization will 
bring major gains in capacity, FAA estimates that new equipment, 
coupled with changes in design and operating procedures for the 
airspace, will increase the number of flights nationwide that can be 
handled safely between 5 and 15 percent. FAA estimates that the biggest 
gain in capacity--between 50 and 55 percent--will come from adding new 
runways. While gains attributable to modernization are not as great as 
some may have expected, the agency nevertheless acknowledges that they 
are important and that it must take action to achieve them.
    In this regard, in April 2001, FAA announced a set of initiatives 
in its Operational Evolution Plan, which is designed to increase 
capacity in the NAS. The agency, in cooperation with the aviation 
industry, is planning improvements in designing airspace and aircraft 
routes and deploying new technologies, among other actions, to permit 
more efficient movements and eventually allow more aircraft to move 
safely in the NAS. This plan complements the April 2001 benchmarks of 
capacity for the nation's 31 busiest airports. Since over 70 percent of 
the passengers move through these airports, the benchmarks allow 
policymakers to target short- and long-term solutions at these 
airports, thereby achieving the biggest increases in capacity. The 
aviation industry has also taken steps to address the capacity crisis. 
For example, a few of the major airlines have individually adjusted 
their flight schedules to even out peaks and have adjusted flight times 
throughout their system to more accurately reflect gate-to-gate 
departure and arrival times. Collectively, FAA and the aviation 
industry have over 50 initiatives to help improve the capacity of the 
NAS in various stages of implementation. We are reviewing the status of 
these initiatives and expect to report on them in the fall of 2001.

FAA Has Fielded Some New Equipment and Technologies, but Several Key 
        Efforts Still Face Problems
    Over the past two decades, FAA has encountered numerous problems in 
its ambitious ATC modernization program to acquire new facilities, 
replace old equipment, and introduce new technologies. Although FAA 
replaced the hardware for the HOST computer system \3\ as scheduled in 
1999 to preclude potential Year 2000 problems, many major modernization 
projects are years behind schedule and cost more than anticipated. 
Others have met with eventual success after FAA restructured them and 
modified their requirements. More recently, FAA has taken a number of 
steps to overcome past problems with its modernization efforts.
---------------------------------------------------------------------------
    \3\ HOST is the en route centers' system for processing flight and 
radar data that is displayed on the controllers' workstations.
---------------------------------------------------------------------------
ATC Modernization Is an Ambitious Undertaking
    ATC modernization, which was announced in 1981 as a 10-year, $12 
billion program, has expanded and is now expected to cost more than $44 
billion through fiscal year 2005.\4\ Of this amount, the Congress 
appropriated over $32 billion for fiscal years 1982 through 2001. The 
agency expects that approximately $12 billion will be provided for 
fiscal years 2002 through 2005. See figure 1 for an illustration of how 
FAA's appropriation was divided among seven functional areas.
---------------------------------------------------------------------------
    \4\ The total cost of modernization includes appropriations for all 
actual and projected facilities and equipment from fiscal year 1982 
through fiscal year 2005 for projects in FAA's financial plan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 2 illustrates how FAA's appropriation was divided by project 
        status--completed projects, ongoing projects, canceled or 
        restructured projects, and personnel-related costs.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
FAA Has Had Mixed Success in Deploying Key Automation Projects 
        Essential to Free Flight
    A key part of FAA's modernization program is replacing old 
equipment that processes radar and other data and displays this 
information on controllers' workstations. This new equipment forms a 
platform that is essential for FAA to deploy the new technologies that 
automate many of the controllers' functions. Eventually, the synergies 
of these technologies will enable FAA to transition from air traffic 
control to air traffic management, which will allow more aircraft to 
safely use the NAS. The agency estimates that this new equipment and 
related technologies will help achieve an increase of between 5 and 15 
percent nationwide in the number of flights that can be safely handled 
when coupled with changes in the design and operating procedures for 
the NAS.
    After restructuring the Advanced Automation System--the centerpiece 
of its original modernization program--and modifying its requirements, 
FAA deployed the Display System Replacement (DSR) project to all 20 en 
route centers in 2000.\5\ However, another project from the 
restructured centerpiece that will deploy similar equipment in terminal 
facilities has encountered major cost, schedule, and performance 
problems. As a result, while FAA has not established a new schedule to 
deploy this equipment--the Standard Terminal Automation Replacement 
System (STARS)--it has indicated that the project's development cost 
will increase by nearly $500 million over its original 1994 estimate of 
$940 million.
---------------------------------------------------------------------------
    \5\ The Advance Automation System was designed to provide, among 
other things, new workstations for controllers and related hardware and 
software. In 1994, FAA restructured the project after the estimated 
cost had tripled, capabilities were shown to be significantly less than 
promised, and delays were expected to run nearly a decade. DSR is the 
en route workstation that graphically displays, on the controller's 
screen, the flight plan and radar data processed by the HOST computer.
---------------------------------------------------------------------------
    To help mitigate problems with the modernization program, in 1998, 
FAA began a phased approach, known as free flight and has begun to 
deploy some new technologies. FAA has been demonstrating and measuring 
the operational effectiveness of five technologies in phase 1 of free 
flight.\6\ To date, the surface movement advisor and collaborative 
decision making tools have been successfully completed. With regard to 
the remaining three, demonstrations have shown that two of these--URET 
and TMA--have the potential to provide benefits despite some technical 
challenges. Because the third tool--pFast--has encountered significant 
technical challenges and FAA is still developing STARS--the 
infrastructure that provides the platform for this tool--the agency 
decided not to extend deployment of this tool to additional facilities 
in phase 2.
---------------------------------------------------------------------------
    \6\ The five tools being demonstrated in phase 1 (1998-2002) are 
collaborative decision making, surface movement advisor, passive final 
approach spacing tool (pFAST), traffic management advisor (TMA), and 
user request evaluation tool (URET). Under phase 2 (2003-2005), FAA 
will deploy certain tools to other locations.
---------------------------------------------------------------------------
     In 1998, as FAA and industry were planning for the deployment of 
free flight technologies, we found that FAA faced many challenges in 
implementing them.\7\ Among these challenges were the need for FAA to 
address outstanding issues related to technology development and 
deployment, such as addressing the impact of modernization on users, 
principally controllers, and integrating various technologies that will 
be used under free flight operations with one another as well as with 
other ATC systems. Our preliminary findings and those of others 
indicate that FAA still has not fully addressed these and other 
challenges.
---------------------------------------------------------------------------
    \7\ See National Airspace System: FAA Has Implemented Some Free 
Flight Initiatives, but Challenges Remain (GAO/RCED-98-246, Sept. 28, 
1998).
---------------------------------------------------------------------------
    With respect to determining the impact of free flight tools on 
controllers, FAA has not established a clear plan for conducting these 
assessments. We agree with FAA, NASA, and air traffic controllers that 
using free flight tools will change the roles and responsibilities of 
controllers--necessitating a major cultural change. For example, using 
the TMA tool will require controllers to move from a common method of 
separating traffic according to distance, which relies more on 
controllers' judgment, to a method using time, which is more dependent 
on automated technology. The traditional method results in less 
efficient use of the airspace because controllers often add distance 
between planes to increase the margin of safety. Under the newer method 
of separating traffic, computers will help controllers balance the 
arrival flow into terminal airspace by assigning a certain time for an 
aircraft to reach a predetermined point. FAA acknowledges that 
transitioning to the new method will take time, but has yet to develop 
a strategy, including detailed training, to help ensure its success.
    To allow FAA and users to fully exploit the capabilities of free 
flight technologies and achieve expected improvements in safety, 
capacity, and efficiency, FAA needs to integrate the technologies with 
one another and with other major ATC systems. Free flight technologies 
are expected to improve the efficiency of operations at high altitudes, 
close to the terminal, and on the ground. While these technologies are 
generally designed to operate independently of one another during phase 
1, FAA plans to begin integrating them during phase 2 to achieve their 
collective synergies. However, FAA still needs to integrate URET with 
other major ATC systems, including FAA's HOST, DSR, and local 
communications networks. This integration is key to fully realizing 
increases in controllers' productivity. Compounding the complexity of 
integration, FAA has been simultaneously upgrading the HOST and DSR 
software to increase their capabilities. How well URET will work with 
these systems is unknown because FAA has yet to fully test this tool 
with them. FAA has developed some of the software needed for 
integration and has begun testing the URET software. By the end of 
August 2001, FAA expects to complete full testing of URET software in 
conjunction with major ATC systems. Testing may uncover the need for 
additional software modifications, which could increase costs and could 
cause the agency to defer planned capabilities.

FAA Has Also Had Problems in Deploying Other Equipment and Technologies
    FAA recognizes the importance of projects in three other functional 
areas--communications, navigation and landing, and weather--to increase 
the capacity of the NAS without compromising safety. After major 
delays, the agency has deployed equipment in these areas. For example, 
FAA has replaced the voice system used by controllers in the en route 
centers to communicate with other controllers and with pilots. The 
agency has also installed a weather radar that alerts aircraft in the 
terminal area of hazardous weather conditions, such as microbursts, 
gust fronts, and precipitation. However, projects in these three areas, 
which have been under development since the 1980s, have continued to 
experience numerous technical problems.
    In communications, FAA has been developing a way to transition from 
voice to data link communications to keep pace with the demand for ATC 
services, improve controllers' productivity, and reduce errors in voice 
communications. The agency has not finalized the cost for the data link 
project but estimates that it will be at least 2003 before it will 
provide limited capability in this area. To improve navigation, FAA has 
been developing a way to transition from a ground-based to a satellite-
based navigation system using the Department of Defense's Global 
Positioning System. Originally, FAA intended to have the initial system 
operational by 1997; now FAA estimates that this system will be 
available by 2003, but with less capability. To reduce en route air 
traffic delays caused by severe weather, FAA has been developing a 
system to consolidate weather data from several sources and provide 
this information at a single, integrated workstation. Although FAA had 
planned to complete a similar project by 1991, FAA now estimates that 
it will complete the initial deployment of this project by the end of 
2002.
    Because of the critical link of the projects noted above to current 
and planned efforts to safely expand the capacity of the NAS, future 
delays could have a negative impact on these efforts. For example the 
Automatic Dependent Surveillance Broadcast, a technology that is 
intended to provide pilots with precise information about the location 
of other aircraft in the NAS, depends on FAA's satellite-based 
navigation system to assure them that the position information they 
receive from satellites is accurate. This satellite-based system also 
has the potential to help pilots and controllers prevent accidents on 
the ground at airports. Continued delays in FAA's satellite navigation 
program could place deployment of important features of this new 
surveillance technology in jeopardy.

A Continued Focus on ATC Modernization and Human Capital Issues Is 
        Important for the Aviation Community to Expand NAS Capacity
    Because of the interconnection and interdependence of key 
components of the NAS, assessing solutions to the capacity problem is 
complex. FAA and aviation industry leaders recognize that most proposed 
solutions cannot be implemented in isolation and therefore must be 
carefully coordinated to help ensure successful implementation as well 
as mitigate the risks of potential unintended consequences. While not 
the sole solution to the delay and congestion problem, FAA's 
modernization program is nonetheless an important part of the solution. 
Its success affects future projects and the deployment of new 
technologies to expand the capacity of the NAS. Furthermore, as 
policymakers assess options, it is important to consider whether human 
capital needs, such as succession planning, are being adequately 
addressed.

FAA Has Taken Steps to Address Modernization Problems, but Must Hold 
        Individuals Accountable and Ensure That They Coordinate Their 
        Actions
    Despite efforts to address its modernization problems, FAA still 
faces problems in instituting an organizational culture that is 
accountable for outcomes and encourages individuals to work together as 
coordinated teams to achieve them. Over the past couple of years, FAA's 
increased collaboration with the aviation industry and its phased 
approach to modernization have been positive developments and have 
allowed FAA and the industry to target specific problems and together 
develop initiatives to solve them. However, according to our work and 
that of others, FAA has not fully instituted the performance-oriented 
culture that is a key to the success of modernization and other 
agencywide efforts.
    The Congress and the aviation community have noted that FAA lacks 
accountability for delivering key modernization projects. Recently, the 
FAA Administrator has taken steps to assign specific accountability to 
individuals who head major offices and to develop agreements to link 
these individuals' performance to outcomes. Most likely, the 
accountability and expectations for achieving outcomes will be pushed 
to managers at lower levels within FAA to increase the likelihood that 
these employees will collaborate as teams to achieve outcomes. Such 
action would be in contrast to the current situation where major 
offices still tend to function in stovepipes that inhibit an integrated 
team approach to developing and delivering systems. FAA has identified 
this integrated team approach as key to the agency's efforts to deploy 
systems that meet performance goals.
    To increase accountability for delivering air traffic services, in 
2000, the Congress created the position of chief operating officer.\8\ 
This individual will be responsible for ATC modernization as well as 
other agencywide activities and services related to air traffic. 
Subsequently, in December 2000, the administration directed FAA to 
establish a performance-based organization that would encompass all of 
FAA's functions related to air traffic. FAA is in the process of 
establishing this organization, to be headed by the chief operating 
officer. This increased attention to accountability, coupled with 
changes under way in the performance management system to link pay to 
performance, are very positive signs for FAA and should go a long way 
toward establishing a climate in which individuals throughout the 
agency are held accountable for specific outcomes.
---------------------------------------------------------------------------
    \8\ Wendell H. Ford Aviation Investment and Reform Act for the 21st 
Century--P.L. 106-181, sec. 303.
---------------------------------------------------------------------------
FAA and the Aviation Industry Will Need to Take Steps to Ensure an 
        Adequate Supply of Well-Trained Aviation Professionals
    If steps are not taken now to plan for succession, the retirement 
of critical personnel responsible for the safe and efficient operation 
of the NAS in the coming decade could negatively affect the ability of 
FAA and others to meet future demands for air service. Many of the 
controllers hired after the 1981 strike are approaching retirement 
eligibility. While estimates of retirements vary, it is generally 
agreed that by 2010, at least 40 percent of the current controller 
workforce will be eligible to retire. The retirement of large numbers 
of controllers in a relatively short time frame raises a number of 
issues. For example, FAA will need to determine (1) how many 
controllers will be needed in the future to control traffic, given 
increased demand and improved equipment; (2) how many controllers will 
be leaving and when; and (3) the source to supply new controllers. 
Addressing these issues cannot be deferred because hiring and training 
new controllers to be fully proficient with the latest procedures and 
technologies takes a significant amount of time. For example, at some 
of the busiest air traffic control facilities, it takes up to 5 years 
for a new controller to go through the training process and become 
``fully certified.'' Therefore, to ensure that it maintains an 
adequately staffed, well-trained controller workforce, FAA must plan 
well in advance for these retirements.
    Likewise, FAA and the airlines face similar challenges with 
maintenance technicians and aircraft mechanics, respectively, who 
maintain equipment used throughout the NAS. Given the critical 
responsibilities that these professionals fulfill, it is vital that FAA 
and the industry address these challenges. GAO has reviews under way to 
address the human capital issues surrounding succession planning for 
these aviation professionals.
    FAA's management of the key initiatives that it has underway, 
supported by industry input, will be critical to safely expanding the 
capacity of the NAS. Continued congressional oversight is also 
important to ensure that FAA meets the challenges presented by the 
increasing demand for air travel.
    Madam Chairman, this concludes my statement. We will be happy to 
answer any questions from you or any Member of the Subcommittee.

    Senator Hutchison. Thank you, Dr. Dillingham.
    Mr. John Carr, the President of the National Air Traffic 
Controllers Association. Thank you.

              STATEMENT OF JOHN CARR, PRESIDENT, 
          NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION

    Mr. Carr. Good morning, Madam Chairman. My name is John 
Carr and I am the President of the National Air Traffic 
Controllers Association. I represent over 15,000 air traffic 
controllers, engineers, and other safety-related professionals, 
and I would like to thank you for the opportunity to testify 
before you here this morning.
    Airline delays and cancellations, capacity and access 
constraints, and traffic congestion continue to plague the 
National Airspace System. Passenger frustration is over the top 
and customers are unhappy. That is the bad news.
    The good news is that the aviation community has stepped up 
to the plate. The National Air Traffic Controllers Association, 
along with the FAA, the pilots, the airlines, the airports, and 
others, are working collaboratively to develop and implement 
concrete solutions.
    The delay problem that we face is much like a three-legged 
stool. First there are capacity enhancements in the form of new 
technology and air traffic control procedures. The FAA under 
the leadership of Administrator Garvey has made significant 
progress in modernizing the air traffic control system. Over 
the past 3 years, the FAA has replaced or upgraded most of the 
major components of the air traffic control system in terms of 
hardware.
    Can the system be improved? Absolutely, and we are working 
with the FAA day and night to move new technologies into the 
workplace as quickly, safely, and efficiently as possible. 
NATCA is now involved in every project from its inception and 
we currently have representatives on over 65 technical 
projects.
    Air traffic control modernization is evolutionary, it is 
not revolutionary, and there really is never going to be an end 
date or an end state to air traffic control modernization. When 
you modernize these safety-sensitive systems, it is an 
evolution. However, we will continue to lead both the agency 
and the industry into the twenty first century.
    Yet, while continuing these upgrades and new technological 
advances which are necessary to ensure safe, efficient travel 
into the future, they alone will not solve the problem of 
airline delays. As a matter of fact, improvements in technology 
will enhance system capacity by 5 to 15 percent at best.
    This is where the second leg of the stool comes into play. 
There is no question that increased airport capacity will have 
a significant impact on reducing airline delays. As a matter of 
fact, we are honored that even the President of the United 
States, President George Bush, agrees with NATCA's position 
when he says ``We need to build more runways.''
    We believe that 50 miles of concrete poured at our nation's 
25 busiest airports will solve most of our aviation delays. A 
new runway can allow for 30 to 40 additional operations per 
hour. The problem is that it takes years for a project to be 
both approved and completed.
    We believe that is why prudent capacity management is the 
third leg ofthat stool. An airport's capacity to handle traffic 
is a function of its size, the layout of its runways, the air 
traffic patterns, and the timeframe in which the large surges 
of traffic must be handled. Our system is built to allow for 
unfettered discretion in adding demand. However, you cannot add 
limitless demand to a finite system.
    A case in point is New York's LaGuardia Airport last 
summer, when airlines filed for 600 slot exemptions within a 
week. The market forces failed to limit that demand and the FAA 
and the Port Authority stepped in. Responsible scheduling of 
flights within capacity limits goes a long way toward 
alleviating delays, and I believe you will probably hear 
something about that from the next witness.
    Meanwhile, there is unused capacity in the system. All 
anyone has to do is look at the success that has been enjoyed 
by Southwest Airlines in servicing regional airports, as well 
as the success that has been enjoyed by Federal Express, who 
absolutely positively has to fly there overnight, to understand 
that there is unused capacity in the system. The dilemma comes 
in matching capacity to demand where and when the public wants 
it. The answer does not lie in artificially reducing demand. 
The answer lies in taking concrete steps to increase capacity.
    It might also be possible to find unused capacity through a 
closer examination of the requirements for actually separating 
aircraft. While air traffic controllers are using 1970's radar, 
1980's radios, 1990's scopes, we are using 1950's separation 
techniques. Any marginal or fractional decrease in separation 
standards could instantaneously free up unused capacity in the 
system. However, any decrease in these standards must be 
measured against the very basic litmus test of safety.
    Regardless of whether capacity is increased through new 
runways, new technologies, or new procedures such as National 
Airspace Redesign, additional air traffic controllers will be 
needed. We will need to ensure that there are enough qualified 
and trained air traffic controllers to handle the increased 
traffic, the opening of new sectors and airways, and to prepare 
for, as the previous witness described, the impending 
retirement crunch. A controller shortage would only exacerbate 
the current delay crisis.
    One thing is clear, however. Creating an air traffic 
monopoly through corporatization, commercialization, or 
privatization of the air traffic control system has no place in 
the discussion of aviation delays. It only detracts from the 
important tasks that lie ahead. Privatization will not improve 
safety, it will not increase capacity, and it will not reduce 
costs. It is radical, it has been a proven failure, and it is a 
threat to everyone that flies.
    Privatization puts profits before safety, even in countries 
that tout the not-for-profit mantra. Safety is our business and 
business is very good. On the other hand, a quick look around 
the world where profit-driven or not-for-profit-driven 
corporations have been put in charge of aviation safety and you 
will see that business is not so good. New Zealand went private 
in 1987. The very next year they slashed standards for airport 
rescue fire services. Just a few weeks ago, and I am sure you 
might have seen this in the media, over 20 flights were left 
circling Auckland while the tower went unmanned due to staffing 
shortages.
    In Australia, safety takes a back seat to liability. A 
confidential Air Services Australia memo indicated that they 
would have to reevaluate their handling of emergency aircraft 
due to liability concerns. Controllers are getting ready for 
those limits on the amount of assistance that they can give to 
aircraft in distress.
    Nav Canada recently closed about a dozen small airports for 
the sake of their bottom line, leaving people in small markets 
without any convenient access to air travel. In addition, the 
company chose to reduce air navigation fees to the airlines and 
to give the airlines rebates instead of investing that excess 
surplus revenue in new technology or modernization efforts. As 
a matter of fact, people tout the Canadian system as the model. 
Quite frankly, it is the model of something that has failed. 
The Canadian air traffic control system is still sitting in 
warehouses 5 years after its inception and they admit that, 
when enacted, functionality will probably be decreased by about 
40 percent.
    As a professional who has worked airplanes for over 20 
years, and I have worked airplanes everywhere from the Gulf of 
Oman to Chicago O'Hare, I can tell you that you simply do not 
cut back on safety.
    We believe that the provision of air traffic control 
services is so intrinsically linked with the public safety and 
the public interest as to mandate its performance by federal 
employees. Air traffic control is an inherently governmental 
function and it is a job that the federal government, even on 
its worst day, does very, very well. Our air traffic control 
system is not only the biggest in the world, it is also the 
safest and it is the envy of every nation.
    I personally have the honor and the privilege of 
representing the absolute finest aviation professionals in all 
of public service and we look forward to working with this 
Subcommittee, with the FAA, with the airlines and the pilots, 
the airports, and other interested groups to develop and 
implement concrete solutions to our delay and our capacity 
dilemma.
    Madam Chair, thank you for the opportunity to testify.
    [The prepared statement of Mr. Carr follows:]

              Prepared Statement of John Carr, President, 
              National Air Traffic Controllers Association

    Good morning Madam Chairwoman, Senator Rockefeller, and Members of 
the Subcommittee. I want to thank you for this opportunity to appear 
before the Subcommittee to discuss the problem of airline delays and 
proposed solutions. I am John Carr, President of the National Air 
Traffic Controllers Association.
    NATCA is the exclusive representative of over 15,000 air traffic 
controllers serving the FAA, Department of Defense and private sector. 
In addition, NATCA represents approximately 1,200 FAA engineers, over 
600 traffic management coordinators, agency operational support staff, 
regional personnel from FAA's logistics, budget, finance and computer 
specialist divisions, and agency occupational health specialists, 
nurses and medical program specialists.
    Airline delays and cancellations, capacity and access constraints, 
and traffic congestion continue to plague our National Airspace System. 
Passenger frustration is over the top and customers are unhappy. That's 
the bad new. The good news is that the aviation community has stepped 
up to the plate. NATCA, the FAA, the pilots, the airlines, the 
airports, and others are working together to develop and implement 
concrete solutions.
    Aviation delays are a multi-faceted problem and just as there is 
not one cause, there is also no blanket solution or quick fix to the 
problem. Today, I would like to discuss a number of topics--capacity 
enhancements, airport capacity, capacity management, separation 
standards, operational errors, National Airspace Redesign, air traffic 
controller staffing and retirements, and privatization--that seem to 
surface in the capacity dilemma.
    First, there are capacity enhancements in the form of new 
technology and air traffic procedures. The FAA, under the leadership of 
Administrator Garvey, has made significant progress in modernizing the 
air traffic control system. Our system can no longer be characterized 
as ``outdated and antiquated.'' NATCA is a firm supporter and partner 
in Administrator Garvey's evolution not revolution strategy of ``build 
a little, test a little, deploy a little,'' and we will remain an 
advocate of this throughout the modernization effort.
    Over the past 3 years, the FAA has replaced or upgraded most of the 
major components of the air traffic control system. The radar displays 
(Display System Replacement) and the Host hardware in the 20 en route 
centers have been replaced. One hundred and thirty-one automation 
systems have been modernized (ARTS IIE) at low-to-medium density 
facilities, new hardware color displays (ACD) have been installed at 
five large facilities, the automation and hardware systems have been 
upgraded at higher demand facilities in Atlanta and Northern 
California, and automation systems (ARTS IIIE) are being fielded at St. 
Louis and Minneapolis to meet Free Flight Initiatives. In addition, the 
Standard Terminal Automated Replacement System has moved from 
development to deployment with initial versions operational in 
Syracuse, NY and El Paso, TX. All of these activities are essential to 
meeting the present and future demands of our air traffic control 
system.
    Can the air traffic control system be improved? Absolutely, and 
NATCA is working day and night with the FAA to move new technologies 
into the workplace as quickly, efficiently and safely as possible. FAA 
modernization is an ongoing process and NATCA is directly involved in 
every technology project from its inception. This collaboration and 
teamwork has been instrumental in ensuring the success of modernization 
projects such as DSR and STARS. NATCA currently has representatives on 
over 65 technical projects, and we will continue to lead both the 
agency and the industry into the 21st Century.
    While continuing upgrades and new technological advances are 
necessary to ensure safe, efficient travel in the future, they will not 
solve the problem of delays. According to the FAA and MITRE 
Corporation, improvements in air traffic control technology will 
enhance system capacity by 5 to 15 percent at best. While newer 
equipment will greatly increase reliability, it will not change the 
number of aircraft that can land or depart at any given time.
    There is no question that increased airport capacity will have a 
significant impact on reducing airline delays. Part of the reason we 
are here today is that airport construction--terminals, taxiways, 
runaways, gates--has not kept pace with passenger growth. According to 
the July 25, 2000 DOT Inspector General Audit Report, only nine new 
runways were opened at the country's 100 largest airports between 1995 
and 1999. And, only three of these nine runways were built at the 
nation's 28 largest airports.
    Capacity can be increased through construction, and AIR-21 provides 
the necessary financial resources. Fifty miles of concrete poured at 
our nation's 25 busiest airports will solve most of our aviation 
delays. A new runway can allow 30 to 40 more operations per hour. The 
problem, however, is that any airport construction or expansion plan 
faces a number of obstacles including political hurdles, space 
limitations, community opposition, noise restrictions and environmental 
concerns. It can take years for a project to be approved. Meanwhile, we 
are fast approaching a crisis situation with respect to aviation 
gridlock.
    This is where capacity management comes into play. An airport's 
capacity to handle air traffic is a function of its size, the layout of 
its runways, the air traffic patterns, both arriving and departing, and 
the time frame in which a surge of traffic must be dealt with due to 
airline scheduling. Our system is built to allow for unfettered 
discretion in adding demand. However, you can not add limitless demand 
to a finite system. Case in point is what happened at New York's 
LaGuardia Airport last summer when airlines filed for 600 slot 
exemptions within about a week. Market forces failed to limit the 
number of flights at LaGuardia, so the FAA and the New York/New Jersey 
Port Authority had to step in.
    Delays occur every day at every major U.S. airport. Schedules are 
made to reduce operating costs and maximize revenue without regard for 
other airlines, terminal airspace or airport capacity. At ``peak'' 
times, dozens of planes are simultaneously taxiing for take-off or 
queuing above the airport in a finite amount of terminal airspace. This 
is where the laws of physics kick in. Given runway capacity, only 
certain number of flights can depart and arrive within a specified time 
period. Therefore, scheduling during peak hours contributes to delays 
at busy airports even in good weather. All scheduled flights will not 
be able to arrive on time. Responsible scheduling of flights within 
airport capacity limits will go a long way toward alleviating delays.
    There is unused capacity in the system. All one has to do is look 
at the success enjoyed by Southwest Airlines to see proof of this. The 
DOT Inspector General notes in the July 25, 2000 Audit Report, ``Air 
Carrier Flight Delays and Cancellations'' that the majority of the 
increase in flight operations and passenger enplanements over the next 
15 years will occur at the nation's 28 largest airports. While most of 
these airports and the surrounding airspace have already exceeded 
existing capacity, regional airports are being underused and ignored. A 
close examination of the use of our nation's existing airports is 
needed. NATCA believes that certain city airports are better suited for 
originating and/or terminating flights than associated hub airports. 
Increased usage of these airports by passengers and airlines will 
alleviate congestion and delays at the hubs.
    It may also be possible to find unused capacity through a close 
examination of the requirements for separating aircraft. Separation 
standards are designed to ensure the safety of aircraft and its 
passengers from other aircraft. The FAA separation standards, which 
date back to the 1950s, require 5 miles laterally in the enroute 
environment, 3 miles laterally in the terminal airspace, and 1,000 to 
2,000 feet vertical depending on altitude. Attempts to determine the 
origin and basis for the current separation standards have revealed 
that they were apparently the result of qualitative judgements. There 
are no documents that explain how the three and five mile standards 
were derived. It is, however, generally accepted that the standards are 
the result of a number of factors including practices used by the 
military, radar equipment limitations, pilot acceptance, and to provide 
for a practical time and distance buffer.
    Today, we have the scientific methods and computer simulation tools 
needed to examine the separation standards. NATCA is willing to join 
with the NTSB, NASA, the pilots, the FAA and other interested parties 
to carefully examine the possibility of reducing the separation 
standards. In April, I met with Professor John Hansman from the 
Massachusetts Institute of Technology International Center for Air 
Transportation, Department of Aeronautics and Astronautics. Professor 
Hansman is researching the dynamics of the emerging capacity crisis in 
our country and is evaluating the current separation standards. 
Professor Hansman's data shows that while separation standards have 
remained unchanged radar performance has improved five-fold.
    While air traffic controllers are using 1970s radar with 1980s 
radios and 1990s scopes, they are using 1950s separation standards. Any 
marginal or fractional decrease in separation standards could 
instantaneously free up unused capacity in the system. However, any 
decrease must also be measured against the litmus test of safety.
    While we are on the subject of safety margins, I would like to 
mention the progress that NATCA has made with the FAA on operational 
errors. We are working to minimize the number of errors while 
developing a better understanding of the chain of events that can lead 
to a loss of minimum separation. Historically, an operational error has 
been counted the same whether separation between aircraft was reduced 
to one mile or 4.9 miles. Now, a new way of categorizing errors has 
been established to reflect the impact on safety using a high, moderate 
or low risk factor formula. Point values are assessed using a formula 
that takes into account altitude, speed and direction. NATCA is pleased 
that an environment of learning and investigation has replaced the 
former punitive approach toward controllers who had an operational 
error.
    While we are working to reduce operational errors, it is important 
to keep the issue in perspective. According to the Department of 
Transportation, the rate of errors last year was .68 for every 100,000 
operations. This equates to one operational error every 147,000 
operations. In addition, only six percent of the current air traffic 
controller workforce has had an operational error in the last two and a 
half years. Of that group, only twenty percent had more than one.
    While safety is the responsibility of all participants in the 
nation's air transportation system, the FAA's air traffic controller 
workforce serves on the front line, managing thousands of commercial, 
military, and general aviation operations on a daily basis. The 15,000 
professional air traffic controllers are essential to the seamless, 
safe and efficient movement of these aircraft at airports, approach 
control centers, and enroute centers. We need to ensure that there are 
enough qualified and trained air traffic controllers to handle the 
increased traffic growth, the opening of new sectors and airways, and 
to prepare for the impending retirement crunch.
    The five-year agreement between the FAA and NATCA, signed in 1998, 
calls for a ``baseline'' of 15,000 air traffic controllers for the 
first three years. The agreement calls for 15,300 full-time equivalents 
in 2002, and 15,606 in 2003. The Administration's FY2002 budget 
request, which provides for the hiring of 600 more air traffic 
controllers, is consistent with this. NATCA does not support reopening 
our contract. However, we do have a fundamental disagreement with the 
agency over the terminology used in the contract. NATCA believes that 
term ``baseline'' refers to a floor, and therefore the 15,000 figure 
represents the minimum number of air traffic controllers.
    It is quite simple. If we continue to add new sectors to 
accommodate the traffic growth, we need to add more air traffic 
controllers. This is especially true when looking at the National 
Airspace Redesign (NAR) project which will review, redesign and 
restructure our national airspace to efficiently and effectively meet 
the needs of all customers and service providers while maintaining the 
high standards of safety. The short-term focus is on optimization of 
the present structure concentrating on projects such as the choke point 
initiatives to strengthening the current system and technology. Then, 
the longer-term airspace redesign projects will incorporate 
technological and conceptual enhancements.
    NATCA has been involved in NAR since its inception in April 1998. 
We have one full-time liaison, eleven regional representatives, and 
about 350 controllers nationwide who are involved in NAR. In March, 
NATCA and the FAA signed a Memorandum of Understanding which states 
that changes to the National Airspace System should be based on 
increasing safety, efficiency and capacity, and any modifications are 
to be made in the best interest of the users of the system and the 
flying. The goals of NAR are clear: maintain system safety; decrease 
system delays; increase system flexibility and predictability; and 
increase user access.
    In addition, this August marks the 20th anniversary of the PATCO 
strike when approximately 11,350 air traffic controllers were fired. 
The FAA spent most of the 1980s hiring and training a replacement 
workforce. By 1992, the controller workforce was restored to pre-strike 
levels, and hiring was halted. Now, after two decades, the air traffic 
controller workforce and the country are about to feel the aftershock 
of the PATCO event.
    The thousands of controllers hired during the post strike recovery 
period will reach retirement eligibility in just a short period of 
time. Retirements will dramatically increase until 2007, when they will 
peak at 8.4 percent of the workforce. By 2010, cumulative retirements 
will exceed 50 percent of the workforce.
    Mandatory overtime, six-day work weeks and understaffed shifts are 
what air traffic controllers will be facing if the government does not 
do something now to prepare for this crisis. Currently, there are not 
enough controllers to fill the gap, and it takes anywhere from 2 to 4 
years to become a full performance level controller. We believe that 
the FAA must immediately begin hiring and training the next generation 
of air traffic controllers.
    Senator Max Cleland will be introducing legislation to lessen the 
impact of the retirement crunch. The current annuity computation for 
air traffic controllers under the Civil Service Retirement System 
actually encourages early retirement because it contains a disincentive 
to defer retirement beyond the point in service when the guaranteed 
level is reached. There are approximately 5,000 air traffic controllers 
under CSRS.
    Senator Cleland's bill would change the CSRS annuity computation to 
give air traffic controllers the same annuity that is afforded to both 
federal firefighters and law enforcement personnel. This will provide 
the necessary incentive for these individuals to continue to work 
beyond their date of retirement eligibility. While the FAA will still 
need to hire new air traffic controllers, the changed annuity option 
will lessen the impact of the retirement crunch, and provide the 
necessary time for the new hires to receive the training they need to 
become full performance level air traffic controllers.
    One thing is clear, privatization has no place in the discussion of 
aviation delays. It only detracts from the important tasks that lie 
ahead. Privatization will not increase airport capacity, or build more 
runways or airports. It is simply a business-oriented solution being 
offered by so-called think tank experts and others who stand to make a 
profit. Proponents argue that competition in the private sector allows 
companies to provide services more efficiently while reducing costs. It 
is foolish to think that a change in ownership will improve safety, 
increase capacity and reduce costs. Private companies will constantly 
balance their bottom line against my bottom line: the safety of the 
travelling public. Some things should not be reduced to dollars and 
cents.
    Proponents often point to Canada's privatized system as the 
solution. However, Nav Canada is the perfect example of a not-for-
profit air navigation corporation with a single-minded focus on saving 
money. The system is financed by fees charged to passengers and 
collected by the airlines to cover the costs incurred by Nav Canada in 
providing air traffic control, flight information, and other services. 
However, instead of investing surplus revenue in new technology, 
modernization efforts, staffing or infrastructure projects, Nav Canada 
has chosen to reduce air navigation fees charged to airlines, and to 
give the airlines fee rebates. Profits are being put before safety.
    Let the words of Mike Murphy, an Ottawa based aviation safety 
consultant and former head of air traffic control in central Canada, 
speak for themselves. ``The motive is to save money and make it more 
efficient but efficiency often works at the expense of effectiveness,'' 
Murphy said. ``In our business, effectiveness is otherwise known as 
safety.''
    According to Murphy, the Canadian Automated Air Traffic System, or 
CATS, has been, ``wound down over the years to the point where it's 
probably going to deliver 40 percent of what was promised and the cost 
is double or triple what it was supposed to be.'' The CATS system, five 
years overdue, has yet to be installed in Canada.
    According to the Canadian Press, the Transportation Safety Board of 
Canada has repeatedly cited Nav Canada for overworking its employees, 
pointing to excessive overtime, understaffing and fatigue as problems 
in the air traffic system. In September Canada's board blamed the fact 
a Winnipeg controller had worked 198 hours in 32 days--43 hours more 
than his contract stipulated--for circumstances leading to a near 
collision between two Boeing 767s.
    Air traffic control is an inherently governmental function. The 
U.S. system is a national treasure that demands thoughtful, proactive 
decision-making that will result in real, lasting improvements in 
procedures, processes and infrastructure. Privatization of this system 
will never be the answer because the safety of air travelers is not for 
sale.
    NATCA looks forward to working with the Subcommittee, the FAA, the 
pilots, airlines, airports, and other interested groups to develop and 
implement concrete solutions. We want to be part of the solution. Given 
the important tasks and challenges facing the aviation industry, we 
believe that it is imperative that the remaining seats on the 
Management Advisory Council (MAC), especially the labor seat, be filled 
before any further business is conducted.
    Currently, the MAC consists of seven members. The Council has held 
six meetings, has elected a Chairman and has begun to move forward in 
its mission. However, there is no labor participation on the MAC. NATCA 
is the logical choice to represent the unions of ``air traffic control 
system employees.'' It would be a privilege to serve as a member of the 
Council. I have submitted my name to the White House and the Secretary 
of Transportation, and I would appreciate your support of my candidacy.
    Madam Chairwoman, that concludes my testimony. I will be happy to 
answer any questions.

    Senator Hutchison. Thank you, Mr. Carr.
    A vote has just been called and I am calling the cloakroom 
to see how long we have, because I would like the go ahead and 
get both of the other panelists in the record so that we will 
not have to have a delay. So I am trying to hold as long as I 
can.
    I am very pleased to welcome a fellow Texan, Mr. Richard 
Vacar. I know and have used both of your wonderful airports 
many, many times. Thank you for being here.

              STATEMENT OF RICHARD M. VACAR, AAE, 
                DIRECTOR, HOUSTON AIRPORT SYSTEM

    Mr. Vacar. Madam Chairman, thank you. I am Richard Vacar, 
Director of Aviation at the Houston Airport System. I would 
like to congratulate you as well for becoming the Committee 
Chairman.
    One only needs to read a newspaper or watch television news 
from time to time to know that the lack of airport airway 
capacity and resulting airline delays are the biggest problems 
facing the aviation industry, and that is why we are here 
today. The fact is we have an airport and airway system that in 
many instances simply has not kept pace with the popular demand 
for travel.
    We first need to emphasize that the aviation capacity 
problem is not a shortfall simply in one part of the system. 
The airports, air traffic control, and airlines have all 
struggled to try to keep up with demand and all have had their 
problems.
    While I am now an airport manager, I have previous 
experiences working for the FAA and as a pilot. I have seen the 
system from every perspective. The key fact is that every 
element of the aviation network depends on each of the other 
elements. Airlines, air traffic control, and airports each must 
live with the demands and the limitations imposed by the 
others. No part of the system is a land unto itself.
    Delays are not caused simply by inadequate airport capacity 
or by inadequate air traffic control capacity or by airline 
practices, and they cannot be solved by addressing only one or 
two of those problems. We have airports that serve as 
bottlenecks and create delays in the ATC system. We have ATC 
capacity problems, including en route centers, where 
bottlenecks are unrelated to scheduling or capacity in any 
particular airport, but the result is ground holds at many 
airports. And we have airlines that are both the victims of all 
this congestion and sometimes guilty of not doing everything 
they could and should do to keep passengers informed when there 
are flight problems. We all have to recognize that solving the 
delay problem will require that we solve all parts of the 
problem.
    Turning to the airport part of the system, capacity 
benchmarks developed by the FAA will help us plan for the 
future. What these benchmarks make clear, however, is that we 
need a concerted effort to get some more capacity into the 
system. We need to make better use of the capacity we now have 
in the airspace and airports. We need to make the air traffic 
control system work better and, perhaps most significantly, we 
need to build more runways, especially at the most congested 
airports, and do it quickly.
    The George Bush Intercontinental Airport, IH, in Houston, 
is a good example of the substantial increase in capacity that 
can be achieved by building additional runways. The airport is 
the thirteenth busiest commercial airport in the United States 
and has been experiencing strong growth, well above the 
national average, for more than a decade. In part due to 
Congressional support for the airport improvement program, the 
FAA was able last year to make a multiyear commitment for $193 
million in AIP grants toward our $1.7 billion expansion at 
Intercontinental, including widening and lengthening of an 
existing runway and construction of a new runway on the north 
side of the airport. Benchmarks show that construction of this 
new capacity at IH will ensure that IH can accommodate the 
passenger and cargo growth that the airport has been 
experiencing.
    Although any successful long-term plan to reduce airline 
delays at IH and most other congested airports throughout the 
country must include a commitment to increasing airport 
capacity by building these new runways, there are other actions 
that could help reduce airline delays and cancellations. 
Improving air traffic control is key to better operations at 
airports, just as increasing airport capacity is key to better 
ATC operations. Benchmarks show that, while most airports can 
accommodate the demand they now have in clear visibility 
conditions, when visual separation is not possible capacity at 
the airport often drops as much as 40 percent. This then 
creates the backups throughout much of the rest of the system. 
Any technology that creates more precise control of aircraft on 
approach reduces this capacity gap between clear visibility and 
the overcast conditions.
    In the en route portion of the ATC system, the Free Flight 
program could also improve overall capacity substantially. 
Redesign of sectors and routes, which FAA is doing constantly, 
also adds to capacity. Extending thousand-foot flight levels, 
which we now use up to 29,000 feet, above 29,000 feet would 
significantly increase en route capacity, and this is something 
that we already have the technology to do and is in fact being 
done in Europe.
    With respect to airports, Congress and the administration 
need to make it possible for congested airports to build 
capacity where they can as quickly as possible. What is now 
clear is that the current process for approving runway projects 
is broken, a conclusion evidenced by the fact that the 
timeframe for completion of runways and other projects is often 
measured in decades. That is why the ACINA and AAAE have 
proposed a streamlining initiative to help expedite the 
construction of airport capacity infrastructure by improving 
the process of project approval, environmental analysis, and 
then permitting.
    In conclusion, while the shortfall we have in the airport 
and airway capacity is very real and is presenting genuine 
hardships and inefficiencies to the users of the aviation 
system, including that airlines, passengers, shippers, we are 
not helpless in the face of these problems. There are specific 
steps we can and in many cases are taking to provide more ATC 
capacity, to build more airport capacity, and to make the 
different elements of the system work better together. I have 
spelled out in my testimony many of those specifics.
    I believe that there is ultimately one solution to the 
system capacity that is insufficient to meet popular demand and 
that is to provide the missing capacity. I believe that with a 
constructive and cooperative airport we can do that both on the 
airways side and on the airport side.
    Thank you for inviting me to participate in today's hearing 
and I would be available for any questions, of course.
    [The prepared statement of Mr. Vacar follows:]

             Prepared Statement of Richard M. Vacar, AAE, 
                    Director, Houston Airport System

    Chairman Hutchison, Ranking Member Rockefeller, and Members of the 
Senate Commerce Subcommittee on Aviation, thank you for inviting me to 
participate in today's hearing on air traffic control delays. I am 
Richard M. Vacar, the Director of Aviation at the Houston Airport 
System in Houston, Texas. I also serve as the First Vice Chairman of 
the Airports Council International-North America (ACI-NA) and as a 
member of the American Association of Airport Executives' (AAAE) Policy 
Review Commission.
    I would like begin by thanking all of you who served on the Senate 
Commerce Committee and the Subcommittee on Aviation last year for your 
help in passing the Wendell H. Ford Aviation Investment and Reform Act 
for the 21st Century (AIR-21). By authorizing record-level funding for 
the airport improvement program and allowing airports to increase much-
needed capacity, Congress has already taken the first steps towards 
reducing the flight delays and cancellations that are negatively 
impacting our aviation system.
    I would also like to congratulate Senator Kay Bailey Hutchison on 
becoming the new Chairman of the Subcommittee on Aviation. Senator 
Hutchison is known throughout Texas as someone who is dedicated to 
improving the transportation system in this country. All of us at the 
Houston Airport System are grateful that she has taken such a keen 
interest in transportation issues during her distinguished career.
    One only needs to read a newspaper or watch television news from 
time to time to know that the lack of airport and airway capacity and 
the resulting airline delays are the biggest problems facing the 
aviation industry and its customers today. Stories of passengers 
demanding better customer service and fed up with delayed and cancelled 
flights seem to appear on a daily basis. Unfortunately, flight delays 
and cancellations are expected to rise with the busy summer months just 
around the corner and with the overall number of passengers using the 
aviation system expected to grow to more than a billion per year by the 
end of the decade.
    The fact is we have an airport and airway system that in many 
instances simply has not kept pace with the popular demand for air 
travel. A key part of that problem is that many of the nation's busiest 
airports simply don't have the capacity to accommodate today's traffic 
let alone the crush of activity projected for the immediate future. In 
its 1998 Aviation Capacity Enhancement Plan FAA cited twenty-seven 
airports that are seriously congested, experiencing more than 20,000 
hours of delay annually. FAA forecasts indicate that unless airport 
capacity investments are made, the number of seriously congested 
airports will grow to thirty-one by 2007. We are not headed in the 
right direction.
    We first need to emphasize that the aviation capacity problem is 
not a shortfall simply in one part of the system. Airports, air traffic 
control, and airlines have all struggled to try to keep up with 
demand--and all have had their shortfalls. While I am now an airport 
manager, I have previous experience as an air traffic controller and as 
a pilot. I have seen the system from every perspective. The key fact is 
that every element of the aviation network depends on each of the other 
elements. Airlines, air traffic control, and airports--each must live 
with the demands and the limitations imposed by the others. Airplanes 
delayed at the most congested airports cannot reliably serve other 
communities. Airlines that schedule aircraft, ostensibly to accommodate 
passenger preferences, must accept the constraints of airspace managers 
and of airports. Limitations of the air traffic control system can 
create delays at airports even where those airports have provided 
adequate runway capacity. No part of the system is an island unto 
itself.
    Delays are caused not simply by inadequate airport capacity, or by 
inadequate air traffic control capacity, or by airline practices--and 
they cannot be solved by addressing only one or two of those problems. 
We have airports that serve as bottlenecks and create delays in the ATC 
system. We have ATC capacity problems, including in the enroute centers 
where bottlenecks are unrelated to scheduling or capacity at any 
particular airport, but the result is ground holds at many airports. 
And we have airlines that are both the victims of all this congestion 
and sometimes guilty of not doing everything they could and should do 
to keep passengers informed when there are flight problems.
    We all have to recognize that solving the delay problem will 
require that we solve all parts of the problem.
    Turning to the airport part of the system, the capacity benchmarks 
developed by the FAA will help us plan for the future. FAA 
Administrator Jane Garvey and her staff deserve credit for providing 
all of us with these capacity benchmarks and informing airports about 
how the agency reached its calculations. This is a planning tool that 
will help all of us--airports, airlines, ATC managers, and Congress--to 
better understand our aviation system.
    The benchmarks are intended as rough estimates of runway capacity. 
That capacity in practice varies significantly depending on visibility, 
wind direction, precipitation, noise procedures, and other factors. The 
benchmarks should therefor not be taken as exact or absolute. 
Nevertheless, they do give us the ability to make useful comparisons of 
airport capacity, and to judge the impact of projects we have underway.
    It should be noted, however, that the benchmarks estimate the 
capacity of runways only. They do not take into account bottlenecks in 
the ATC system, or on the ramp, or in the terminal, or at any other 
part of the passenger's journey.
    What these benchmarks make clear, however, is that we need a 
concerted effort to get some more capacity into the system. We need to 
make better use of the capacity we now have in the airspace and the 
airports. We need to make the air traffic control system work better 
and, perhaps most significantly, we need to build more runways, 
especially at the most congested airports; and we need to do it 
quickly.
    The George Bush Intercontinental Airport (IAH) in Houston is a good 
example of the substantial increase in capacity that can be achieved by 
building additional runways. The airport is the 13th busiest commercial 
airport in the United States and has been experiencing strong growth--
well above the national average, for nearly a decade. Although IAH has 
four runways already, the airport desperately needs more capacity to 
keep up with increased demand. In part due to Congressional support for 
the Airport Improvement Program, the FAA was able last year to make a 
multi-year commitment for $193 million in AIP grants toward our $1.7 
billion expansion project at IAH, including the widening and 
lengthening of an existing runway and the construction of a new runway 
on the north side of the airport.
    The capacity benchmarks released by the FAA indicate that IAH can 
currently accommodate 120-123 take-offs and landings per hour under 
clear visibility conditions. Once the fifth runway is built, however, 
IAH will be able to accommodate 162-165 take-offs and landings per 
hour. With other planned improvements, those numbers will increase even 
further to 170-173 take-offs and landings per hour, according to the 
FAA benchmarks.
    The construction of a new runway at IAH and other improvements will 
ensure that IAH can accommodate the passenger and cargo growth that the 
airport has been experiencing. The FAA's capacity benchmarks prove what 
many of us in the airport community have been saying for a long time--
the best way to substantially increase airport capacity and reduce 
airport-related delays is to build more runways.
    Although any successful long-term plan to reduce airline delays at 
IAH and most other congested airports throughout the country must 
include a commitment to increasing airport capacity by building new 
runways, there are other actions that could be help reduce airline 
delays and cancellations in the short- and medium-terms.
    Improving air traffic control is key to better operations at 
airports, just as increasing airport capacity is key to better ATC 
operations. Modernizing the National Aviation System and making 
structural improvements in air traffic control are critical to 
enhancing efficiency and capacity throughout the aviation system. 
Demonstrations at several airports have confirmed the benefit of early 
deployment of the Aircraft Vortex Spacing System (AVOSS), the Local 
Area Augmentation System (LAAS), and the Automatic Dependent 
Surveillance-Broadcast (ADS-B). The benchmarks show that while most 
airports can accommodate the demand they now have in clear visibility 
conditions, when visual separation is not possible, capacity of 
airports often drops as much as 40 percent. This then creates backups 
throughout much of the rest of the system. Any technology that creates 
more precise control of aircraft on approach reduces this capacity gap 
between clear visibility and overcast conditions. LAAS will be 
particularly important in this regard.
    In the enroute portion of the ATC system, the Free Flight Phase 1 
and Phase 2 programs could also improve overall system capacity 
substantially. Redesign of sectors and routes, which FAA is doing 
constantly, also adds to capacity. And extending 1000 foot flight 
levels, which we now use up to 29,000 feet, above 29,000 feet, would 
significantly increase enroute capacity. This is something we already 
have the technology to do, and in fact Europe has already done it. With 
continued support from this Subcommittee, I hope the FAA will expedite 
the deployment of these and other technology initiatives that will 
improve system capacity.
    We all need to work smarter to solve these problems, and to better 
understand the interrelationship between airport and airway capacity.
    For example, we in Houston had worked with FAA for years on the new 
main runway project we now have under construction. And I am pleased to 
report that we had a lot of support in that effort both from FAA and 
the airlines. But last summer, when we were just about to get final go-
ahead for construction, we got a last minute word from FAA that, while 
they were pleased that we were doing our part to solve the capacity 
problem by building a new runway, they would not request any ATC 
equipment to make that runway useable! We were looking at the prospect 
of completing a new runway and not being able to use it because FAA had 
not provided any ATC for it. And this was despite a personal effort 
several months earlier by Administrator Garvey to get the various parts 
of FAA to work together on this project.
    Fortunately, Congress stepped in and directed FAA to provide the 
missing ATC equipment, but it should not have taken that kind of 
external effort to make the obvious happen. I am pleased to report, 
however, that this year FAA has corrected the problem and has included 
the normal ATC work to prepare for this new runway in its annual 
budget. But this was an example of the different parts of the system, 
in this case the different parts of FAA, not working together as they 
should have.
    With respect to airports, Congress and the Administration need to 
make it possible for congested airports to build capacity where they 
can, as quickly as possible.
    What is now clear is that the current process for approving runway 
projects is broken, a conclusion evidenced by the fact that the 
timeframe for completion is often measured in decades. That's why ACI-
NA and AAAE have proposed a streamlining initiative to help expedite 
the construction of critical airport capacity infrastructure by 
improving the process of project approval, environmental analysis, and 
permitting.
    Developing the legislative initiative was a long and involved 
process. Over the course of the past six months, ACI-NA and AAAE held 
literally dozens of meetings with our members, environmental airport 
planning and development officials; key FAA and congressional staff; 
and environmental and aviation law experts, to find solutions that 
balance the need for continued environmental stewardship with the need 
to expedite the process by which airport operators, federal and state 
regulators, and environmental agencies review and approve critical 
airport projects. That painstaking but successful process produced the 
Expedited Airport System Enhancement (EASE) initiative.
    In summary, the EASE initiative would give priority to critical 
airport capacity projects, within the scope of existing environmental 
laws, and better integrate application of those laws into the process 
for approving such projects. EASE also seeks to improve procedures at 
FAA and elsewhere in the federal government to make sure that these 
critical projects receive prompt and informed attention.
    Key provisions of the EASE proposal include:

  <bullet> Declaration of ``Critical National Airport Capacity'' 
        Projects, which would eliminate the need for the lengthy off-
        airport ``alternatives'' process for such projects;

  <bullet> Priority processing by involved agencies of Critical Airport 
        Capacity Projects;

  <bullet> Establishment of an Airspace System Capacity Enhancement 
        Council or Czar;

  <bullet> Airport funding of project-specific FAA staff or consultants 
        for expedited review of Critical Airport Capacity Projects;

  <bullet> Expansion of categorical exclusions;

  <bullet> Facilitation of agreements with local governments to allow 
        additional mitigation for Critical Airport Capacity Projects;

  <bullet> Requirement of realistic state air quality implementation 
        plans; and

  <bullet> Elimination of the duplicative Governor's Certificate.

    We have now been working to distribute it far and wide, in numerous 
meetings with decision-makers, in Washington and throughout the 
country.
    In addition, a number of individual airports have now joined with 
several major airlines and other key travel industry players in 
building a coalition focused on bringing national attention to the need 
for additional runways. The group, called ``Runways: A National 
Coalition,'' has already been very successful in shining a spotlight on 
the need to build runways at key airports.
    I would also note that, with ATC delays reaching record levels in 
2000, good information to passengers about the status of their flights 
is more valuable than ever before, and is also more of a challenge to 
provide than ever before. This is an area where, it seems to me, we can 
and should do better. Airlines, airports, and the FAA have created a 
task force which is working out ways to get information on delays and 
cancellations to airport monitors and therefore to passengers in a more 
timely and accurate way. Fixing system capacity, and thereby reducing 
delays, remains the preferred solution, but we also need to recognize 
that the problem is severe enough that we need to find ways for 
passengers to cope with it until capacity enhancements can reduce the 
size of the problem.
    In conclusion, while the shortfall we have in airport and airway 
capacity is very real, and is presenting genuine hardships and 
inefficiencies to the users of the aviation system, including airlines, 
passengers, and shippers, we are not helpless in the face of these 
problems. There are specific steps we can, and in many cases are, 
taking to provide more ATC capacity, to build more airport capacity, 
and to make the different elements of the system work better together. 
I have spelled out here many of those specifics. I believe that there 
is ultimately only one solution to system capacity that is insufficient 
to meet popular demand, and that is to provide the missing capacity. I 
believe that with constructive and cooperative effort, we can do that, 
both on the airway side and on the airport side. We are not 
competitors--the fact is that neither the airport nor the airway side 
succeeds until we both succeed. I would hope we could all work in a way 
designed to bring the day when we all succeed a little closer.
    Chairman Hutchison, Ranking Member Rockefeller, and Members of the 
Senate Commerce Subcommittee on Aviation, thank you again for inviting 
me to participate in today's hearing on air traffic control delays. On 
behalf of the Houston Airport System, I look forward to working with 
you during the 107th Congress as you consider ways to reduce airline 
delays and increase airport capacity, and I would be pleased to try to 
answer any questions you might have.

    Senator Hutchison. Thank you very much.
    Mr. Merlis, Mr. Edward Merlis, who is the Senior Vice 
President for Legislative and International Affairs at Air 
Transport Association. Mr. Merlis.

          STATEMENT OF EDWARD A. MERLIS, SENIOR VICE 
PRESIDENT, LEGISLATIVE AND INTERNATIONAL AFFAIRS, AIR TRANSPORT 
                     ASSOCIATION OF AMERICA

    Mr. Merlis. Thank you. Good morning, Madam Chairman. I am 
Edward Merlis, Senior Vice President of the Air Transport 
Association. I appreciate the opportunity to appear before you 
to discuss government and industrywide efforts to address air 
traffic control delays.
    It is through a shared commitment to identifying and 
understanding the interrelated causes of delays that we can 
solve this escalating problem. Simply stated, our nation's 
aviation system's three components of capacity--the airlines, 
air traffic control, and airports--are out of sync and 
consequently are not meeting the needs of the traveling and 
shipping public. Each is under the control of very different 
forces. Yet all of the components must work together 
harmoniously if we are going to have a smoothly functioning 
aviation system.
    Before addressing the collaborative efforts between the 
industry and the FAA, I would like to address a number of 
unilateral airline-specific actions that have been taken to 
mitigate delays. While carriers are always adjusting their 
scheduling practices, the substantial increase in delays over 
the past few years has intensified the urgency to take such 
action. Thus a number of specific initiatives have been 
undertaken in this regard.
    For example, last summer American Airlines identified the 
cascading effect of O'Hare-related flight delays. As you know, 
an aircraft departing from a city generally travels through a 
number of other cities in the airline's system before returning 
to the originating city. Unfortunately, this practice can 
exacerbate delays in cities unrelated to the initial departure 
point on a day with adverse weather. In order to minimize these 
consequences, American has isolated aircraft used for service 
at O'Hare. As a result, it is anticipated that American's 
delays arising from O'Hare will not cascade to subsequent 
cities in its system.
    Similar aircraft isolation initiatives to reduce this 
domino effect of the initial delay have been undertaken by a 
number of airlines, including Delta, United, and US Airways.
    Another action carriers can and have taken concerns 
smoothing out scheduling peaks. During the course of the day, 
particularly at a hub, an air carrier clusters flights in order 
to maximize connectivity among city pairs. Carriers have 
examined these schedule peaks and taken a number of actions 
that hold promise. For example, American has smoothed out its 
peaks at Dallas-Fort Worth.
    Continental is engaged in a similar de-peaking exercise 
that has already borne fruit. During the first quarter of 2001, 
delays at Newark International Airport, one of the nation's 
most delay-plagued airports, have been decreased by 20 percent 
over the previous year, in large measure due to Continental's 
efforts.
    Delta has taken a significant delay mitigation step by 
increasing the number of connecting complexes or banks at 
Atlanta Hartsfield International Airport, increasing the number 
of these banks from 10 to 12 and reducing the maximum number of 
flights in any bank from 90 to 75. By spreading these flights 
out over a greater portion of the day, delays arising from 
peaks have been significantly reduced.
    Another action designed to reduce delays has to do with 
choosing airports. While it is essential that an airline fly 
where its customers want to go, in certain circumstances there 
is a measure of passenger flexibility. For example, many are 
familiar with Southwest's practice of using regional airports 
such as Midway instead of O'Hare, Islip instead of the three 
New York-Newark airports, Fort Lauderdale instead of Miami, and 
Providence and Manchester instead of Boston. Similar efforts of 
this type include Northwest's increasing service levels at 
Manchester, New Hampshire, and Portland, Maine, and Southwest's 
recent transfer of all of its service at San Francisco 
International to Oakland in order to increase schedule 
reliability.
    Airlines, however, can only use alternative airports if the 
infrastructure is available, the costs are not excessive, 
restrictions on the use of the airport are nonexistent, and, 
most importantly, there is a market to be served.
    Additionally, carriers are also evaluating the gauge of the 
aircraft they use on particular routes. Delta, for example, has 
recently announced that it will begin using wide-body 767's on 
at least one LaGuardia city pair, which, while I may not reduce 
delays substantially, will increase the passenger throughput 
through the airport.
    There continue to be a number of collaborative efforts 
between the FAA and the decision to address the capacity and 
air traffic control system, to accommodate the demands placed 
on it. Since the summer of 1999, ATA and the FAA have been 
searching for mechanisms to handle near-term capacity shortages 
that arise on days with particularly adverse weather. As a 
result of evaluations of the spring-summer 2000 plan, a number 
of modifications were made to the spring-summer 2001 program 
whose operations commenced on April 1st. FAA Administrator 
Garvey went into those in some detail, so I will not, in light 
of the fact that I already heard the five bells. But suffice it 
to say we have already seen improvements during the first month 
that that program has been operating.
    I would like to note that these daily conference calls 
provide a great opportunity to use the authority contained in 
S. 633, your bill, so that we can manage the reduction in 
service in order to accommodate as many passengers as possible. 
But this collaboration and cooperation between the industry and 
the FAA is not unusual. There is a long history of it, and we 
have found other ways of using it as we go forward in 
developing new technologies.
    The Free Flight Phase 1 Program Office appears to be 
another success along these lines. It reports to the Deputy 
Administrator, it involves the industry, and has great promise. 
Another FAA-industry cooperative initiative is Safe Flight 21, 
in which the industry and the FAA are moving closer to Free 
Flight, including the development of ADSB, an important tool to 
combat the problem of runway incursions and surface collisions.
    Mention was made earlier of the LAAS and WAAS programs, and 
the controller-pilot datalink communications system is another 
collaborative effort. Additionally, the release 2 weeks ago of 
the NAS operational evolution plan and FAA's continuing 
consultation with the industry on the plan has a high potential 
for success. So there are many areas where industry and FAA 
work well to develop these tools and those are only some of the 
ones that I have identified.
    Last, I would be remiss if I did not acknowledge the 
contributions of the air traffic controllers. So while my 
testimony is focused on the institutional relationships between 
airlines and the FAA, it is the day-in and day-out business of 
the air traffic controllers that deserves our respect, our 
admiration, and our appreciation.
    I would be happy to respond to any questions.
    [The prepared statement of Mr. Merlis follows:]

    Prepared Statement of Edward A. Merlis, Senior Vice President, 
  Legislative and International Affairs, Air Transport Association of 
                                America

    Good morning, Madam Chairman and Members of the subcommittee. I am 
Edward Merlis, Senior Vice President of the Air Transport Association 
of America (ATA).\1\ I appreciate the opportunity to appear before you 
to discuss government and industry-wide efforts to address air traffic 
control delays. It is through a shared commitment to solving the 
interrelated causes of delays that we can find our way out of an 
escalating problem.
---------------------------------------------------------------------------
    \1\ ATA member airlines include: Alaska Airlines, Aloha Airlines, 
America West Airlines, American Airlines, American Trans Air, 
Continental Airlines, Delta Air Lines, DHL Airways, Emery Worldwide, 
Evergreen International Airlines, Federal Express, Hawaiian Airlines, 
Midwest Express Airlines, Northwest Airlines, Polar Air Cargo, 
Southwest Airlines, Trans World Airlines, United Airlines, United 
Parcel Service, and US Airways. Associate members include: Aerovias De 
Mexico, Air Canada, KLM Royal Dutch Airlines, and Mexicana De Aviacion.
---------------------------------------------------------------------------
    Simply stated, our aviation system's three components of capacity--
airlines, air traffic control, and airports--are out of synch and 
consequently are not meeting the needs of the traveling and shipping 
public. Each is under the control of very different forces. Yet, at the 
end of the day, all of the components must work together harmoniously 
if we are to have a smoothly functioning aviation system.
    When I appeared before the subcommittee on March 29, I addressed 
(and endorsed) the legislation that you and Senator Rockefeller 
introduced--S. 633, the Aviation Delay Prevention Act. At that hearing, 
I noted that the bill addresses both near-term and long-term issues, 
e.g. so-called over-scheduling at certain delay-plagued airports and 
expansion of our airport infrastructure. Today, I would like to review 
both activities related to the airport capacity conundrum as well as 
discuss systems and procedures we can utilize to expand air traffic 
control capacity and minimize delays. Some of these are short-term; a 
number are long-term.

Airline-specific Actions
    Even prior to FAA's issuing the capacity benchmarks; carriers began 
taking unilateral scheduling actions at certain airports to mitigate 
delays. For example, last summer American Airlines identified the 
cascading effect of O'Hare-related flight delays attributable to 
aircraft utilization patterns. As you know, an aircraft departing from 
a city generally travels through a number of other cities in the 
airline's system before returning to the originating city. Depending on 
the aircraft, routing, and mission, this may take several days or even 
weeks. Unfortunately, that same practice can exacerbate delays in 
cities unrelated to the initial departure point on a day with adverse 
weather. In order to minimize these consequences, American has 
isolated, to the maximum extent practicable, aircraft used for service 
at O'Hare. As a result, it is anticipated that delays arising from 
O'Hare will not cascade to subsequent cities in its system.
    Similar aircraft isolation initiatives to reduce the domino effect 
of the initial delay have been undertaken by Delta, United, and US 
Airways.
    Another action carriers can and have taken concerns smoothing out 
scheduling peaks. During the course of the day, particularly at a hub, 
an air carrier bunches flights in order to maximize connectivity among 
city pairs. Examining these schedule peaks has resulted in a number of 
important decisions that hold promise. For example:

  <bullet> American has smoothed out its peaks at Dallas-Ft. Worth 
        International Airport.

  <bullet> Continental has engaged in a similar de-peaking exercise 
        that has already borne fruit. During the first quarter of 2001, 
        delays at Newark International Airport, one of the nation's 
        most delay-plagued airports, decreased by 20 percent from the 
        previous year.

  <bullet> Delta has taken a significant delay mitigation step by 
        increasing the number of connecting complexes or ``banks'' at 
        Atlanta Hartsfield International Airport from 10 to 12 while 
        reducing the maximum number of flights in any bank from 90 to 
        75. By spreading these flights over a greater portion of the 
        day, delays arising from peaks are being significantly reduced.

    Another action designed to reduce delays has to do with choosing 
airports. While it is essential for an airline to ascertain where its 
customers want to fly, in certain circumstances there is a measure of 
passenger flexibility. For example, many are familiar with Southwest's 
practice often resulting in its use of alternative airports to the main 
airport in a particular city. Southwest has done this by using Midway 
instead of O'Hare, Islip instead of the three New York-Newark airports, 
Ft. Lauderdale instead of Miami, and Providence, RI and Manchester, NH 
instead of Boston Logan. Similar efforts of this type include 
Northwest's increasing service levels at Manchester, NH and Portland, 
ME and Southwest's recent elimination of all service at San Francisco 
International Airport in order to increase schedule reliability. In 
addition to passenger flexibility, however, airlines can only use 
alternative airports if the infrastructure is available and the cost is 
not excessive
    One other limitation on expansion of this practice is a set of 
long-standing, grandfathered airport use restrictions. Thus, carriers 
seeking to expand to Westchester County Airport in lieu of the 
congested New York-Newark airports, or Long Beach and John Wayne 
Airport in lieu of Los Angeles International Airport, or San Jose 
instead of San Francisco, find that there are local limitations on the 
use of these airports unrelated to capacity. Efforts to lessen these 
restrictions may bear fruit in our efforts to expand airport capacity 
in the national system.

Air Traffic Control
    There continue to be a number of collaborative efforts between the 
FAA and the airline industry to address the capacity of the air traffic 
control system to accommodate the demands placed upon it. First, I 
would like to address a short-term venture that has grown out of the 
necessity created by the spiraling increase in delays during the past 
few years.
    Since the summer of 1999, ATA and FAA have been searching for 
mechanisms to handle near term capacity shortages that arise on days 
with particularly adverse weather conditions. As a result of 
evaluations of the spring/summer 2000 plan, a number of modifications 
were made to the spring/summer 2001 program, whose operations commenced 
April 1st.
    In preparation for that initiative, approximately 3,100 airline and 
FAA employees went through a joint airline--FAA training process and 
have now been trained in the goals and methods of the program, the 
requirements for communications, and the decision making process. Each 
morning, the air carriers conduct a separate industry-only weather 
briefing conference call to see if agreement can be reached as to the 
impact of the daily weather forecast. Subsequently, every two hours 
during the day, joint conference calls are held between the air 
carriers' operations centers, FAA's command center, and FAA's field 
facilities to provide additional information concerning changes in 
weather, to agree on the plan of operation, to determine how the 
program for the day is working, and to identify modifications that need 
to be made.\2\
---------------------------------------------------------------------------
    \2\ The authority to coordinate schedules during periods of 
inclement weather, as provided in proposed section 41722 (b)(1) of 
Title 49, as amended by S. 633, might prove to be particularly useful 
if incorporated into the process described herein.
---------------------------------------------------------------------------
    The program has been in effect for a month, but I think it is safe 
to say that it is working better than it did last year. There is a 
greater commitment to its success by both FAA and our carriers. More 
air carriers are participating and more air carrier employees are 
involved.
    This cooperation and collaboration is not unusual. There is a long 
history of industry--FAA cooperation in developing and expediting 
technological advances in the air traffic management, navigation and 
aircraft operations arenas that we seek to foster.
    One of the best examples of FAA-industry collaboration was the 
effort undertaken to address the Year 2000 computer bug. The Y2K 
Program has been heralded by many within FAA and the industry as a 
model for future FAA program management because of the partnership 
internally at FAA as well as with industry. These partnerships were set 
out at the beginning of the program and continued through the 
successful rollover on January 1, 2000.
    FAA's Year 2000 Program Office structure can be instructive and 
useful in developing a set of recommendations for future FAA programs. 
Our assessment is that FAA's Y2K success is attributable, in large 
measure, to an accountability structure that included firm deadlines, 
direct communication with the Administrator, access to funds when 
needed, and by a collaborative and consultative initiative that engaged 
all of the affected parties throughout the program's life.
    In this same vein, the Free Flight Phase One Program Office is 
another qualified success in that it reports directly to the Deputy 
Administrator and is, for all intents and purposes, running on 
schedule. Another FAA--industry cooperative initiative is ``Safe Flight 
21,'' a program that will be instrumental in the development of 
technologies that move the industry closer to free flight, including 
the development of Automatic Dependent Surveillance--Broadcast (ADS-B) 
as an important tool to combat the problem of runway incursions and 
surface collisions.
    FAA--industry cooperative efforts also extend to the Local Area 
Augmentation System (LAAS) and Wide Area Augmentation System (with the 
WAAS Integrity and Performance Panel), both working on standards and 
implementation of Global Positioning Satellites in aircraft navigation. 
The Free Flight Steering and Select Committees are working on 
improvements in the routings and handling of aircraft in flight. There 
is an effort underway to expedite the testing and implementation of 
Controller-Pilot Data Link Communication (CPDLC), which will provide 
great improvements in the provision of information back and forth 
between airliners and controllers.
    Lastly, the release two weeks ago of the NAS Operational Evolution 
Plan--and FAA's continuing consultation with industry on that plan--has 
a high potential for success.
    We appreciate the opportunity that has been afforded the industry 
to work with FAA on this essential long-term plan. FAA has responded 
positively to many of the industry's suggestions, particularly those 
concerning accountability. We feel that the NAS Operational Evolution 
Plan is an important living document that charts a course to increased 
air traffic capacity.
    There are many areas where industry and FAA work well together to 
develop various tools--and these are only some of the more formalized 
working arrangements that exist. There are others that are simply 
government-industry work groups with no formal titles or mandates other 
than to confer, compare notes, and collaborate on progress. While 
progress is not always easy, we believe that these efforts are very 
worthwhile, and we are constantly seeking new areas in which to 
cooperate.
    Let us not leave out of this discussion the work of the air traffic 
controllers. While I have focused on the institutional relationships 
between the airline industry and FAA, it is important to recognize the 
contribution to this process made by our air traffic controllers. These 
hard working men and women deserve our respect, our admiration, and our 
appreciation.

Airport Capacity Benchmarks
    We anticipate that passage of the antitrust immunity provision in 
S. 633 may provide some additional near-term relief. However, we should 
not set our expectations too high. FAA's OPSNET data consistently 
demonstrates that about 11 percent of delays are related to ``terminal 
volume'' or airline scheduling. Looking at FAA's recent capacity 
benchmarks thus provides us with an excellent opportunity to quantify 
how much of that ``volume'' is related to scheduling. While a number of 
carriers have been able to smooth out the scheduling peaks at airports 
where they have the most traffic, it is at airports with large numbers 
of competitors that the antitrust immunity is necessary to facilitate 
carrier scheduling coordination to levels below the benchmarks.
    We looked at FAA's capacity benchmarks compared to schedules 
excluding LaGuardia (LGA) and Phoenix (PHX).\3\ The results were 
telling. Adjusting schedules will not provide the dramatic improvement 
in on-time performance we all seek. The chart attached to my 
testimony--entitled Good Weather Analysis of OAG Schedules vs. Airport 
Capacity Benchmarks explains this phenomenon.
---------------------------------------------------------------------------
    \3\ FAA collected data in September 2000. Due to the interim rules 
implemented at LGA in January, the relevance of the LGA schedule cannot 
be determined. Although LGA is included in the charts accompanying the 
testimony, it is not included in our analysis and computations. PHX has 
been left out of both the charts and the computations due to errors 
contained in the schedule data.
---------------------------------------------------------------------------
    Let me use an example. It has been well publicized that at Chicago 
O'Hare (ORD) schedules exceed capacity for three hours of every day. 
However, in examining the total number of scheduled flights that exceed 
capacity during those three hours, we find only 66 or 2.7 percent of 
all (2416) flights scheduled at ORD between the busiest hours of 7 AM 
and 10 PM.
    Madam Chairman, if you look at the second chart entitled Delays vs. 
Scheduling, you will find some particularly revealing information which 
suggests that the remedy for our delay problem must not be limited to 
scheduling. The chart shows that there are substantial delays occurring 
at a number of airports operating at or below the ostensible capacity 
as reported by FAA. Moreover, it shows that there are minimal delays at 
several airports operating substantially above the capacity benchmarks. 
Just to use extremes, at no hour of the day does Detroit operate above 
the benchmark, yet it has average delays per flight in excess of those 
at airports such as Dallas-Ft. Worth, Seattle-Tacoma and San Diego, 
each of which operates above the benchmark.
    This finding confirms the FAA Administrator's admonition when the 
benchmarks were released--that the data was an interesting data set 
that could provide some useful information to deal with airport 
capacity issues. When coupled with our analysis of the number of 
flights exceeding the benchmarks (556 out of 32,030 at the 29 
airports), it clearly indicates that only a small portion of delays 
(1.7 percent) can be addressed by near-term efforts related to 
scheduling. Thus, we join with you, Madam Chairman, in focusing on 
increasing airport capacity in order to keep pace with anticipated 
demands.

Congestion Pricing and Other Demand Management Schemes
     Some have suggested that limits be put on our national economy's 
demand for air transportation. This is wrong. Throttling back the 
economy is not a solution. Increasing capacity is the only appropriate 
response to the public's needs--and in the long run, the only response 
that the public will accept. Moreover, the more efforts are directed at 
demand management, the more likely we are to lose focus on the real 
problems and the more we will fail to provide what the American people 
want--safe, fast, frequent, efficient air transportation at fair 
prices.
    Congestion or peak hour pricing has been suggested by some as a 
means to ration airport capacity. Our concern with congestion or peak 
hour pricing is that these regimes focus on demand management rather 
than capacity management. In our view implementation of such a scheme 
is an admission of failure to meet the public's transportation needs--
and the demands of our economy.
    In an economically ideal world, congestion pricing is a measure of 
value that should be reflected in the costs paid by the air carriers 
and their customers. But we do not live in an economically ideal world. 
Based on conversations with members and staff of this and other 
congressional committees, we believe that there is a certainty that 
Congress would require any congestion pricing regime implemented to 
waive congestion pricing for some classes of users, (particularly those 
that disproportionately use the air traffic control system in relations 
to the number of passenger transported) thus undermining any potential 
congestion mitigation for all and altering the economic underpinnings 
of such a system.
    FAA has indicated that it will soon embark on rule-making 
proceedings to address congestion pricing, both broadly as well as at 
LGA. Based upon conversations which ATA has had with FAA staff, it is 
apparent to us that FAA is inclined to exempt from the congestion 
pricing regime a set number of slots per day for four special 
categories: general aviation, service to small communities, new 
entrants, and international flights. These four categories utilize 
approximately 30 percent of LGA's daily slots.
    Economists we have consulted suggest that for a congestion pricing 
regime to work at LGA, landing fees need to be increased at least 500 
percent. But if 30 percent of LGA's slots are exempted and the 
remaining 70 percent are subject to the increased fees, we anticipate 
that there will be no reduction in delays, albeit substantial numbers 
of passengers will be required to pay roughly $50 per ticket more for 
the privilege.
    Further, the resolution of complex legal, economic, and most 
importantly, safety issues necessitated by such a scheme will 
inevitably detract from efforts to address the more critical long-term 
issues. We are also concerned that fees raised during peak hours to 
limit demand will not be devoted to commensurate investment in capacity 
anywhere in the system, let alone at the facility in question. When 
that happens, congestion pricing is inconsistent with the goal of 
building and maintaining a safe, healthy, vibrant, and competitive 
national air transportation system.
    Among our other concerns with congestion pricing are the following 
questions which should be carefully analyzed:

  <bullet> To what extent will air traffic controllers, both on 
        approach and en route, shuffle aircraft for which congestion-
        pricing premiums have been levied on passengers?

  <bullet> How will congestion pricing be established and who will be 
        responsible for setting it?

  <bullet> Will congestion pricing serve as an excuse not to expand 
        capacity to meet unmet and growing demand?

  <bullet> How will traffic from small and midsize communities be able 
        to bear the incremental costs arising from peak hour pricing? 
        To what extent would such a system disenfranchise residents of 
        these communities from the national network? Alternatively, 
        pushing service to these communities outside of the peak hours 
        may necessitate residents of those communities adding an 
        additional overnight to a trip, at significant costs that need 
        to be computed.

  <bullet> To what extent will public policy exemptions--small 
        communities, new entrants, business jets, or government 
        aircraft to name just a few--result in just as much congestion 
        but at higher prices for those not exempted?

  <bullet> Should a congestion-pricing scheme be revenue-neutral, so as 
        not to build up tempting surpluses that local officials will 
        inevitably seek to siphon off the airport?

  <bullet> Even if a congestion pricing system is revenue-neutral, 
        should the terms by which grand-fathered airports operate (49 
        U.S.C 47107(b)(2)) be changed to preclude them from using these 
        funds for non-aviation purposes?

  <bullet> How will congestion pricing affect feeder traffic flow from 
        small planes and communities that may not be able to afford the 
        peak hour surcharge? Without that feeder traffic and with fewer 
        passengers on the connecting long haul over which the 
        surcharges are spread, to what extent will the scheme have the 
        potential to further increase prices on tickets elsewhere in 
        the network?

Conclusion
    In the long run, the safe and efficient operation of our aviation 
system is a collaboration of many partners. Where that collaboration 
operates with common understanding and respect, it holds the greatest 
promise for long-term success in air traffic control enhancements. We 
must expand and enhance our infrastructure if we wish to accommodate 
the growing demand for air travel on U.S. airlines forecast by FAA to 
reach one billion passengers annually by 2012.
    Thank you for the opportunity to present this statement. We look 
forward to responding to the subcommittee's questions and continuing to 
work with you on your efforts to reduce delays through airport and air 
traffic control capacity expansion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Hutchison. Thank you.
    They are holding the vote open for me, so I must leave. I do not 
want to ask you to wait for me to come back, so I am not going to ask 
questions. I do want to thank all of you. We have your testimony. I 
think it crosses the lines of all of the interested parties to this and 
it has been very, very helpful. I thank you and we look forward to 
working with all of you to get the congestion out of the skies, off the 
ground, and get our air traffic control system in complete control of 
our aviation system.
    Thank you very much.
    [Whereupon, at 11:48 a.m., the Subcommittee was adjourned.]

                                  <all>

</pre></body></html>
